<html>
<title> - A PREPARED COMMUNITY IS A RESILIENT COMMUNITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





             A PREPARED COMMUNITY IS A RESILIENT COMMUNITY

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2016

                               __________

                           Serial No. 114-80

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-263 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                               WITNESSES
                                Panel I

Mr. Michael Byrne, Deputy Regional Administrator, Federal 
  Emergency Management Agency, Region II, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Ms. Marion Mollegen Mc Fadden, Deputy Assistant Secretary, Grant 
  Programs, Office of Community Planning and Development, U.S. 
  Department of Housing and Urban Development:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Daniel A. Zarrilli, Chief Resilience Officer, Office of the 
  Mayor, City of New York, New York:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

                                Panel II

Mr. Vincent M. Ignizio, Chief Executive Officer, Catholic 
  Charities of Staten Island, Staten Island, New York:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Mr. Brad Gair, Private Citizen:
  Oral Statement.................................................    39
  Prepared Statement.............................................    42
Ms. Donna Moravick, Executive Director, Southside Hospital, Bay 
  Shore, New York:
  Oral Statement.................................................    45
  Prepared Statement.............................................    46
Ms. Kelly D. Higgs, Disaster Recovery and Resiliency Coordinator, 
  New Jersey Voluntary Organizations Active in Disaster:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49

                             FOR THE RECORD

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Prepared Statement of Ronald Castorina, Jr., Assemblyman, 62nd 
    District, The Assembly, Albany, State of New York............     9
  Prepared Statement of Nicole Malliotakis, Assemblywoman, 64th 
    District, The Assembly, Albany, State of New York............    10

                                APPENDIX

Questions From Chairman Daniel M. Donovan, Jr. for Michael Byrne.    61
Questions From Chairman Daniel M. Donovan, Jr. for Marion 
  Mollegen McFadden..............................................    62

 
             A PREPARED COMMUNITY IS A RESILIENT COMMUNITY

                              ----------                              


                         Monday, July 11, 2016

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                   Jersey City, NJ.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
the Staten Island University Hospital Regina McGinn Educational 
Center, 475 Seaview Avenue, Staten Island, New York, Hon. 
Daniel M. Donovan, Jr. (Chairman of the subcommittee) 
presiding.
    Present: Representatives Donovan and Payne.
    Mr. Donovan. Thank you, ladies and gentlemen, for attending 
today. I just wanted to warn that at 10 o'clock the hospital 
has some type of drill that is going to go on, so you are going 
to hear alarms. It has nothing to do with the hearing, and it 
doesn't mean it is over, to our witnesses. Thank you.
    The Committee on Homeland Security's Subcommittee on 
Emergency Preparedness, Response, and Communications will come 
to order.
    The subcommittee is meeting today to examine efforts to 
ensure community resilience. I appreciate the effort taken on 
behalf of all those involved to have this important field 
hearing take place. This is an official Congressional hearing, 
as opposed to a town hall meeting and, as such, we must abide 
by certain rules of the Committee on Homeland Security and the 
House of Representatives. I kindly wish to remind our guests 
today that demonstrations from the audience, including applause 
and verbal outbursts, as well as any use of signs or placards, 
are a violation of the rules of the House of Representatives. 
It is important that we respect the decorum and the rules of 
this committee.
    I now recognize myself for an opening statement.
    Thank you all for taking the time to appear today before 
the Subcommittee on Emergency Preparedness, Response, and 
Communications, and I thank Staten Island University Hospital 
for hosting us in this beautiful facility.
    Nearly 4 years ago, a perfect confluence of circumstances 
brought Superstorm Sandy and its devastating storm surge to our 
doorstep. Dozens of New Yorkers lost their lives, thousands of 
homes were damaged or destroyed, and billions of dollars have 
been spent in the aftermath.
    Oftentimes after a disaster like this, the public just 
wants to see action--something, anything--being done to fix it. 
Under the gun, Congress drafts legislation to allocate massive 
sums to Federal agencies and to impacted jurisdictions, usually 
with limited oversight.
    Resources are, of course, necessary to recover and defend 
against future disasters. But have the investments made after 
Superstorm Sandy resulted in a stronger, more resilient New 
York? Just as importantly, have the Federal agencies worked 
together to maximize their individual investments? What can be 
done to improve?
    That is what we are here to talk about today. My opening 
statement will discuss the rationale for Federal investments in 
storm resiliency projects and then highlight a few examples of 
Government working well, and also areas for improvement. I look 
forward to hearing from each agency, delving into some more 
specifics about their resiliency focus and how we can improve 
upon the status quo.
    First, it is a fact that $1 spent today to mitigate flood 
risk will save many dollars after a disaster strikes. The 
Federal Government's focus on risk mitigation, particularly the 
concentrated focus after Sandy, will save lives and money in 
the future. It is a missed opportunity to replace in-kind homes 
and infrastructure after a disaster, only to leave them just as 
vulnerable to destruction during future disasters. That is why 
it is encouraging to see agencies like HUD place such a strong 
emphasis on resiliency projects.
    But the investments should have a cohesive strategy. Not 
just HUD investments working together with other HUD 
investments, or Army Corps projects tying into other Army Corps 
projects. Where possible, HUD projects should complement FEMA 
projects, and USDA projects should complement Army Corps 
projects, and so on.
    For example, it seems strange that differing FEMA and Army 
Corps standards would result in no change in flood insurance 
maps or premiums after the Army Corps completes a project 
designed to reduce flood risk. Yet, that has actually happened 
in some cases.
    The response has not just been Federal. The city of New 
York has also devoted tremendous resources to Sandy recovery 
and has transformed the way it approaches disaster preparedness 
and recovery over the last 4 years.
    Here at home, the city of New York has acted aggressively 
to advocate for Federal risk mitigation grants, coordinate 
investments and projects, and work toward a city less 
susceptible to storms like Sandy.
    The Mayor's Office of Recovery and Resiliency, led by Dan 
Zarrilli, has an entire team dedicated to this cause. In 
general, an empowered office coordinating the different work 
happening in the city will minimize missed opportunities, save 
time, and maximize efficiencies. It's good to see that New York 
City is operating in this way.
    We can find a great example of the benefits of 
collaboration right here on Staten Island. The Army Corps of 
Engineers is planning and designing a $600 million line of 
protection stretching from Ft. Wadsworth to Oakwood along 
Staten Island's eastern shore.
    There have been obstacles and setbacks, but through each 
challenge the Mayor's Office, the Corps, and the National Park 
Service, which has jurisdiction over some of the land that the 
Corps is using, have worked collaboratively and productively to 
overcome them.
    My team, along with Senator Chuck Schumer's office and 
Borough President James Oddo's office, is on the phone almost 
every week with the involved agencies to keep track of its 
progress and schedules.
    While the Corps is not here today, this subcommittee will 
continue to maintain focus on the status of that project to 
ensure that it remains on time, on budget, and that it will 
deliver the expected results to the residents of Staten Island.
    Despite great partnerships, agency turf battles seem to be 
unavoidable, and that's disappointing. The Corps and the USDA 
have been squabbling over easements, which has jeopardized a 
$32 million investment in Staten Island's ``Bluebelt,'' a 
natural drainage system crucial to the borough's 
sustainability. Oddly, each agency wants the same exact 
outcome, a flood drainage easement. I understand differences of 
opinion will arise across agencies, but collaboration must 
trump retrenchment. It is what the public expects and, more 
importantly, what they deserve.
    We must also address the post-disaster housing recovery 
strategies to effectively mitigate risk. After spending upwards 
of $4.6 billion, New York City neighborhoods will be left with 
a hodgepodge of housing types. A single block could see a 
handful of elevated and rebuilt structures, a few empty lots, 
and the rest repaired in-kind. Is this the best possible 
outcome?
    We must consider the question in the context of New York 
City's unique housing stock. Mitigation standards that work for 
single-family detached homes in the south don't work for multi-
family attached structures here.
    In fact, Federal one-size-fits-all floodplain building 
regulations actually prohibit repairing attached homes that 
suffered the most damage. Floodplain regulations require homes 
that suffered substantial damage to elevate during repairs, but 
attached homes can't be elevated. Owners of attached homes are 
stuck in this bureaucratic morass, unable to legally repair 
their structures and unsure of options aside from elevation 
that could reduce their flood risk. Urban areas like New York 
require detailed alternative mitigation options with 
commensurate flood insurance premium credits.
    While inflexible Federal standards may impede urban post-
disaster housing mitigation, New York City has benefited from 
creative new ventures like FEMA's 428 alternative process and 
HUD's resiliency competitions. I'm sure we will hear more about 
the successes of these programs from the agencies here today. 
In particular, I am interested in hearing FEMA's assessment of 
the Rapid Repairs program, which restored heat, hot water, and 
electricity to 20,000 residential structures in 90 days.
    Last but not least, we will hear from representatives of 
charitable organizations and Southside Hospital. These 
organizations worked tirelessly to assist the residents in 
their communities after the storm, and each of them experienced 
their own challenges in these efforts.
    Non-profits are often the most effective responders because 
they have deep local relationships and understand the needs of 
their friends and neighbors. My friend Vinny Ignizio, who leads 
Catholic Charities here on Staten Island today but was a 
council member during and after Sandy, has a unique perspective 
on how government and non-profits can improve their 
coordination in response to disasters. I am sure Ms. Higgs will 
also have a unique perspective on this issue.
    Hospitals are among the most important critical 
infrastructure during and after a major disaster. SIUH, where 
we are here today, is in the 100-year floodplain, as is 
Southside, which faced tremendous flooding during Sandy.
    Three Federal agencies--FEMA, HUD, and the VA--have made 
substantial resiliency investments in New York hospitals, and I 
am interested in hearing how the agencies have coordinated 
their investments to make them work together to maximize their 
utility. In particular, I am also interested in hearing from 
Southside Hospital in regard to their experiences working with 
FEMA since the storm.
    As the subcommittee meets today, we are at the start of 
another hurricane season, and whether it is this year or in the 
years to come, another disaster will strike New York City. Four 
years after Sandy and the appropriation of more than $50 
billion for the regional recovery effort, are we more prepared 
today than we were before?
    This hearing will point us in the right direction. Now is 
the time to address any inadequate statutes, resolve any 
interagency turf battles, and build the relationships to ensure 
that we are a resilient community in the face of the next 
disaster.
    Before I yield to my friend, the Ranking Member from New 
Jersey, Don Payne, for his opening statement, I want you all to 
know that when I was appointed the chairman of this 
subcommittee, I said that we wouldn't be holding hearings just 
for the sake of holding hearings. After each hearing that we 
have held this year since I became Chair, we have taken action 
on the information provided by our witnesses, whether it was 
successfully advocating for the restoration of homeland 
security grants that are vital to New York City and major urban 
areas around the country or introducing legislation to address 
cybersecurity challenges.
    Today's hearing will be no different. Many of the issues I 
will raise today have been raised by my constituents, and I can 
assure you that we will work to consider and take action on the 
things we learn from today's hearing.
    With that, I welcome our distinguished witnesses and yield 
back the balance of my time.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                             July 11, 2016
    Thank you all for taking the time to appear today before the 
Subcommittee on Emergency Preparedness, Response, and Communications, 
and thank you to Staten Island University Hospital for hosting us in 
this beautiful facility.
    Nearly 4 years ago, a perfect confluence of circumstances brought 
Superstorm Sandy and its devastating storm surge to our doorstep. 
Dozens of New Yorkers lost their lives, thousands of homes were damaged 
or destroyed, and billions of dollars have been spent in the aftermath.
    Oftentimes after a disaster like this, the public just wants to see 
action--something, anything--being done to Fix It. Under the gun, 
Congress drafts legislation to allocate massive sums to Federal 
agencies and to impacted jurisdictions, usually with limited oversight.
    Resources are, of course necessary, to recover and defend against 
future disasters. But have the investments made after Superstorm Sandy 
resulted in a stronger, more resilient New York? And just as 
importantly, have the Federal agencies worked together to maximize 
their individual investments? What can we improve?
    That's what we're here to talk about today. My opening statement 
will discuss the rationale for Federal investments in storm resiliency 
projects, and then highlight a few examples of Government working well 
and areas for improvement. I look forward to hearing each agency delve 
into some more specifics about their resiliency focus, and how we can 
improve upon the status quo.
    First, it's a fact that $1 spent today to mitigate flood risk will 
save many dollars after a disaster strikes. The Federal Government's 
focus on risk mitigation--particularly the concentrated focus after 
Sandy--will save lives and money in the future. It's a missed 
opportunity to replace in-kind homes and infrastructure after a 
disaster, only to leave them just as vulnerable to destruction during 
future disasters. That's why it's encouraging to see agencies like HUD 
place such a strong emphasis on resiliency projects.
    But the investments should have a cohesive strategy. And not just 
HUD investments working together with other HUD investments, or Army 
Corps projects tying into other Army Corps projects.
    Where possible, HUD projects should complement FEMA projects, and 
USDA projects should complement Army Corps projects, and so on.
    For example, it seems strange that differing FEMA and Army Corps 
standards would result in no changes to flood in surance maps or 
premiums after the Army Corps completes a project designed to reduce 
flood risk. Yet, that has actually happened in some cases.
    The response has not just been Federal, the city of New York has 
also devoted tremendous resources to Sandy recovery and has transformed 
the way it approaches disaster preparation and recovery over the past 4 
years.
    Here at home, the city of New York has acted aggressively to 
advocate for Federal risk mitigation grants, coordinate investments and 
projects, and work toward a city less susceptible to storms like Sandy.
    The Mayor's Office of Recovery and Resiliency, led by Dan Zarrilli, 
has an entire team dedicated to this cause. In general, an empowered 
office coordinating the different work happening in the city will 
minimize missed opportunities, save time, and maximize efficiencies. 
It's good to see New York City operate this way.
    We can find a great example of the benefits of collaboration right 
here on Staten Island. The Army Corps of Engineers is planning and 
designing a $600 million line of protection stretching from Ft. 
Wadsworth to Oakwood along Staten Island's east shore.
    There have been obstacles and setbacks, but through each challenge 
the Mayor's Office, the Corps, and the National Park Service--which has 
jurisdiction over some of the land the Corps will use--have worked 
collaboratively and productively to overcome them.
    My team, along with Senator Chuck Schumer's office and Borough 
President James Oddo's office, is on the phone almost every week with 
the involved agencies to track progress and schedules.
    While the Corps is not here today, this subcommittee will continue 
to remain focused on the status of that project.
    To ensure that it remains on time, on budget, and that it will 
deliver the expected results to the residents of Staten Island.
    Despite the great partnerships, agency turf battles still seem 
unavoidable, and that's disappointing. The Corps and the USDA have been 
squabbling over easements, which has jeopardized a $32 million 
investment in Staten Island's ``Bluebelt,'' a natural drainage system 
crucial to the borough's sustainability.
    Oddly, each agency wants the same exact outcome--a flood drainage 
easement. I understand differences of opinion will arise across 
agencies, but collaboration must trump retrenchment--it's what the 
public expects and more importantly deserves.
    We must also address the post-disaster housing recovery strategies 
to effectively mitigate risk. After spending upwards of $4.6 billion, 
New York City neighborhoods will be left with a hodgepodge of housing 
types.
    A single block could see a handful of elevated and rebuilt 
structures, a few empty lots, and the rest repaired in-kind. Is that 
the best possible outcome?
    We must consider the question in the context of New York City's 
unique housing stock. Mitigation standards that work for single-family 
detached homes in the south don't work for multi-family attached 
structures here.
    In fact, Federal one-size-fits-all floodplain building regulations 
actually prohibit repairing attached homes that suffered the most 
damage. Floodplain regulations require homes that suffered substantial 
damage to elevate during repairs, but attached homes cannot be 
elevated. Owners of attached homes are stuck in this bureaucratic 
morass, unable to legally repair their structures and unsure of options 
aside from elevation that could reduce their flood risk. Urban areas 
like New York require detailed alternative mitigation options with 
commensurate flood insurance premium credits.
    While inflexible Federal standards may impede urban post-disaster 
housing mitigation, New York City has benefited from creative new 
ventures like FEMA's 428 alternative process and HUD's resiliency 
competitions. I'm sure we'll hear more about the successes of these 
programs from the agencies here today. In particular, I'm interested to 
hear FEMA's assessment of the Rapid Repairs program, which restored 
heat, hot water, and electricity to 20,000 residential structures in 90 
days.
    Last but not least, we will hear from representatives of charitable 
organizations and Southside Hospital. These organizations worked 
tirelessly to assist the residents in their communities after the storm 
and each of them experienced their own challenges in those efforts.
    Non-profits are often the most effective responders because they 
have deep local relationships and understand the needs of their friends 
and neighbors. My friend Vinny Ignizio, who leads Catholic Charities 
here on Staten Island today but was a Council Member during and after 
Sandy, has a unique perspective on how Government and non-profits can 
improve their coordination in response to disasters. I am sure Ms. 
Higgs will also have a unique perspective on this issue.
    Hospitals are among the most important critical infrastructure 
during and after a major disaster. SIUH, where we are right now, is in 
the 100-year floodplain, as is Southside, which faced extreme flooding 
during Sandy.
    Three Federal agencies--FEMA, HUD, and the VA--have made 
substantial resiliency investments in New York Hospitals and I'm 
interested in hearing how the agencies have coordinated their 
investments to make them work together to maximize their utility. In 
particular I am also interested in hearing from South Side Hospital in 
regard to their experiences working with FEMA since the storm.
    As the subcommittee meets today, we are at the start of another 
hurricane season, and whether it is this year or in the years to come, 
another disaster will strike New York City. Four years after Sandy and 
the appropriation of more than $50.5 billion for the regional recovery 
effort, are we more prepared for that eventuality?
    This hearing will point us in the right direction. Now is the time 
to address any inadequate statutes, resolve any interagency turf 
battles and build the relationships to ensure that we are a resilient 
community in the face of the next disaster.
    Before I yield to the Ranking Member for his opening statement, I 
want you all to know that when I was appointed Chairman of this 
subcommittee, I said that we wouldn't be holding hearings just for the 
sake of holding hearings. After each hearing we've held this year, 
we've taken action on the information provided by our witnesses--
whether it was successfully advocating for the restoration of homeland 
security grants that are vital to New York City and major urban areas 
around the country or introducing legislation to address cybersecurity 
challenges.
    Today's hearing will be no different. Many of the issues I will 
raise today have been informed by my constituents. And I can assure you 
that we will work to consider and take action on the things we learn 
from today's hearing.
    With that, I welcome our distinguished witnesses and yield back the 
balance of my time.

    Mr. Donovan. The Chair now recognizes the Ranking Member of 
the subcommittee, Mr. Payne, for an opening statement.
    Mr. Payne. Thank you. Good morning. I am pleased to join my 
good friend, Chairman Donovan, today in Staten Island to learn 
how the New York-New Jersey region has built itself better and 
stronger in the nearly 4 years following Superstorm Sandy.
    But before I begin, I want to acknowledge the circumstances 
we find ourselves in today. Last week, National tragedies 
filled the headlines. My heart is heavy for the families of 
those who were killed in Baton Rouge, Falcon Heights, and 
Dallas. Although these tragedies happened far away from here, 
our communities are not immune from this kind of heartbreak. I 
hope that when we return to Washington this week, with only 5 
legislative days remaining before a 7-week recess, the House 
will do something meaningful about law enforcement's 
relationship with diverse communities. I hope it will do 
something about the irrational access to military-style 
firearms that killed 5 brave police officers Thursday night, 
which has always been my concern of these weapons being 
available.
    Our country can do better than this.
    Turning the focus to today's field hearing, nearly 4 years 
ago Superstorm Sandy pummeled this region, destroying homes and 
communities and causing tens of billions of dollars in damage. 
Our region is not accustomed to responding to and recovering 
from storms of this magnitude, and our population density, 
coupled with significant infrastructure damage, certainly 
complicated the process.
    I am proud of the hard work and compassion demonstrated by 
our local emergency responders in the days and weeks following 
the storm. I wish I could say the same for the government of my 
home State of New Jersey. In the years that followed the 
disaster, allegations surfaced that the Governor has played 
politics with disaster relief money, and to this day people 
complain that the State has been slow to distribute funds to 
those who need it.
    As of April, approximately $1 billion in Federal funds has 
yet to be obligated. In the wake of the storm, people in low-
income communities were hit hardest and ultimately struggled 
most to find affordable housing in the months that followed. 
These recovery challenges were exacerbated by the fact that 
many in low-income populations were not in a position to 
advocate for themselves to access the resources necessary to 
recover and become more resilient.
    Today we are in the midst of hurricane season, and I am 
wondering what would be different if a storm like Sandy hit us 
today. Does the Federal Government have better measures in 
place to ensure that State governments administer programs 
supported by Federal dollars quickly and efficiently and not 
play politics with disaster relief? Are low-income communities 
as able to incorporate hazard mitigation and resilience 
activities into the disaster recovery efforts as more affluent 
communities are? If not, what are we doing about it?
    Finally, what have we learned about how to best leverage 
the capabilities of charities and non-profit organizations in 
disaster response?
    I look forward to the witnesses' testimony today and 
thoughts on what Congress can do to help make communities more 
resilient.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                             July 11, 2016
    Last week, National tragedies filled the headlines. My heart is 
heavy for the families of those who were killed in Baton Rouge, Falcon 
Heights, and Dallas. Although these tragedies happened far away from 
here, our communities are not immune to this kind of heartbreak.
    I hope that when we return to Washington this week--with only 5 
legislative days remaining before a 7-week recess--the House will do 
something meaningful about law enforcement relationships with diverse 
communities. I also hope it will do something about the irrational 
access to military-style firearms that killed 5 brave police officers 
Thursday night. Our country can be better than this.
    Turning to the focus of today's field hearing, nearly 4 years ago, 
Superstorm Sandy pummeled this region, destroying homes and communities 
and causing tens of billions of dollars in damage. Our region is not 
accustomed to responding to and recovering from storms of that 
magnitude--and our population density coupled with significant 
infrastructure damage certainly complicated the process.
    I am proud of the hard work and compassion demonstrated by our 
local emergency responders in the days and weeks following the storm. I 
wish I could say the same for the government of my home State of New 
Jersey.
    In the years that followed the disaster, allegations surfaced that 
the Governor played politics with disaster relief money, and to this 
day, people complain that the State has been slow to distribute 
disaster funds to those who need it.
    As of April, approximately $1 billion in Federal funds had yet to 
be obligated. In the wake of the storm, people in low-income 
communities were hit hardest and ultimately struggled most to find 
affordable housing in the months that followed.
    These recovery challenges were exacerbated by the fact that many in 
low-income populations were not in a position to advocate for 
themselves to access the resources necessary to recover and become more 
resilient.
    Today, we are in the midst of hurricane season, and I am wondering 
what would be different if a storm like Sandy hit us. Does the Federal 
Government have better measures in place to ensure that State 
governments administer Federal programs supported quickly and 
effectively--and do not play politics with disaster relief?
    Are low-income communities able to incorporate hazard mitigation 
and resilience activities into their disaster recovery efforts as more 
affluent communities? And if not, what are we doing about it? Finally, 
what have we learned about how to best leverage the capabilities of 
charities and non-profit organizations in disaster response?
    I look forward to the witnesses' testimony today and thoughts on 
what Congress can do to help make communities more resilient.

    Mr. Donovan. The gentleman yields back.
    We are pleased to have two panels of very distinguished 
witnesses before us today on this important topic. I will now 
introduce our first panel.
    Mr. Michael Byrne serves as deputy regional administrator 
for Federal Emergency Management Agency Region II. Prior to 
joining FEMA, he spent 20 years with the New York City Fire 
Department and served as first deputy director of the New York 
City Office of Emergency Management. Mr. Byrne also served as 
FEMA's regional operations chief after the 9/11 attack on the 
World Trade Center. Following Hurricane Sandy, Mr. Byrne served 
as the Federal coordinating officer for New York.
    Ms. Marion McFadden serves as deputy assistant secretary 
for grant programs in the Office of Community Planning and 
Development, CPD, at the Department of Housing and Urban 
Development. Prior to joining CPD in August 2014, Ms. McFadden 
served as chief operating officer and acting executive director 
for the Hurricane Sandy Rebuilding Task Force and was a founder 
of the Rebuild By Design competition.
    Mr. Dan Zarrilli serves as New York City's chief resilience 
officer, overseeing the Mayor's Office of Recovery and 
Resiliency, Office of Sustainability, and the city's OneNYC 
Program, a position he has held since January 2016. Prior to 
this, he was the first director of the Mayor's Office of 
Recovery and Resiliency in March 2014 and served as the acting 
director of the Office of Long-Term Planning and Sustainability 
from February to December 2014. After Hurricane Sandy, he 
served on the Special Initiative for Rebuilding Resiliency.
    The witnesses' full written statements will appear in the 
record. Before I recognize Administrator Byrne for testimony, I 
ask unanimous consent to enter into the record written 
testimony submitted by the elected officials from Staten Island 
and Brooklyn. Without objection, this is so ordered.
    [The information follows:]
    Prepared Statement of Ronald Castorina, Jr., Assemblyman, 62nd 
           District, The Assembly, Albany, State of New York
                             July 11, 2016
    Thank you, Congressman Donovan, for soliciting my input concerning 
the future use of Federal funds to aid Staten Island in the event of 
another catastrophic storm like Hurricane Sandy (``Sandy''). While 
Sandy may be a distant memory to many citizens in the area, to Staten 
Islanders, and my constituents on its South Shore it never abated and 
remains an on-going problem. The effects from Sandy manifest themselves 
from zombie properties to small businesses that were forced to shutter 
their doors due to inadequate coordination among the different branches 
of government. It is clear that citizens, and local businesses cannot 
afford a repeat of failings of Sandy.
    I, however, submit this testimony with the benefit of hindsight. It 
will neither serve my constituents nor will it aid in the process to 
continue living in the past. Today, I implore this esteemed committee 
to assure my constituents, and all Staten Islanders that we will not be 
forgotten to the bright lights and titans of finance in Manhattan, or 
the boardwalks of New Jersey.
    Sandy taught us that a hurricane's storm surge is every bit as 
deadly as its winds and rains. Staten Island requires the allocation of 
substantial Federal funds to secure its coastline against the ravages 
of future storm surges. Twenty-four Staten Islanders died as a result 
of Sandy's rising tides accounting for more than half the deaths in New 
York City. We need to remember it was Sandy's storm surge that ripped 
little Connor and Brendan Moore \1\ from their mother's arms and 
dragged their lifeless bodies to a marsh at the dead end of McLaughlin 
Street in South Beach. While I am happy to see the Federal Government 
plans to protect the residents and businesses of Lower Manhattan, 
residents and businesses on Staten Island are entitled to the same 
protections as the stock exchange.
---------------------------------------------------------------------------
    \1\ Photo of Connor and Brendan Moore appearing on silive.com 10/
29/2013.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Staten Island requires a total overall of its flood drainage 
system, the construction of sea walls and temporary flood walls that 
could be deployed before a storm, and the building grass berms that 
could double as recreational areas. Essentially, Staten Island 
requires, and deserves, all of the protections touted by Senator 
Schumer to be afforded to the residents and businesses in Lower 
Manhattan.\2\
---------------------------------------------------------------------------
    \2\ http://www.nytimes.com/2016/01/19/nyregion/new-york-city-to-
get-176-million-from-us-for-storm-protections.html?_r=0 (accessed 7/12/
2016).
---------------------------------------------------------------------------
    I am fully cognizant of the importance Lower Manhattan plays in the 
economy of this country and, undeniably, the entire world. Before we, 
as a Nation, commit to restoring recreational areas and centers of 
commerce, I believe we must ensure that people are safe in their homes. 
To do otherwise reinforces a culture of fungible workers and consumers. 
I ask the esteemed Members of this committee to remember the faces of 
these 2 children when allocating Federal funds and implore you not to 
send a message that the protection of commerce alone trumps the freedom 
from fear in their homes.
                                 ______
                                 
Prepared Statement of Nicole Malliotakis, Assemblywoman, 64th District, 
                The Assembly, Albany, State of New York
                             July 11, 2016
    First, allow me to express my enthusiasm and gratitude that a real, 
robust coastal storm risk management project is being implemented in 
Staten Island. After decades of fear and waiting, the people of these 
shoreline communities will finally receive the protection they need and 
deserve. It is unfortunate that it took a catastrophe like Hurricane 
Sandy to move this project forward, but I am sure that all residents, 
elected officials, and government agencies are eager to see this plan 
finalized and commence with construction.
                 communication and timeliness are key.
    The U.S. Army Corps of Engineers (USACE) and New York State 
Department of Environmental Conservation (NYSDEC) presently enjoy 
overwhelming support from the community on the East Shore seawall 
project. However, adequate communication with the residents and their 
elected officials, along with a strict adherence to timetables, are 
vital to maintaining this positive relationship. Most of the community 
understands that a project of this magnitude will encounter 
unforeseeable problems, but that level of understanding will go only so 
far as what is timely and honestly communicated to them.
       lowering flood insurance premiums must be a priority goal.
    As you are likely aware, the Federal Emergency Management Agency 
(FEMA) is in the process of developing updated flood maps for New York 
City that will draw an increased amount of properties into the 
Federally-designated floodplain and, accordingly, will require an 
increased number of homeowners to purchase flood insurance policies. 
Furthermore, those who already own flood insurance policies will see 
their premiums increase. These changes approach steadily, and surely, 
and promise a profound impact on a significant number of Staten 
Islanders, many of whom are still struggling to recover from the 
destruction wrought by Sandy. I implore that you work with FEMA to 
ensure that the completion of this project is considered in the 
calculation of flood insurance premiums and furthermore, meets FEMA's 
requirements so homeowners indeed benefit from lower premiums.
              this project must be scalable and flexible.
    I was very pleased to learn that seawall project is being developed 
with an eye toward the future and the ability to alter the physical 
barriers for increased protection. This project is an investment in 
Staten Island, and must come with the ability to properly conform to 
changing weather patterns and future needs of our community.
                    phase ii of the seawall project.
    The southern portion of my legislative district extends into the 
neighborhoods of Great Kills and Eltingville, home to many residents 
who shouldered the same devastation of their neighbors to the northeast 
but beyond the reach of Phase I of the seawall project.
    You are likely familiar with the beach mitigation program 
implemented by the New York City Department of Parks & Recreation, with 
guidance from the USACE, to provide temporary shoreline protection for 
the communities most heavily impacted by Sandy. The project was 
expeditiously completed and has been well-received by nearby residents, 
with one particularly glaring exception. The shoreline terminus of 
Goodall Street lacks public property upon which any natural protective 
measure can be implemented, resulting in a gap in the berm as it runs 
from the southern end of Great Kills Harbor along the South Shore.
    Many residents on Goodall Street and surrounding blocks now feel as 
if they reside in a ``bullseye'' for the next storm, and upon 
completion of Phase I those feelings will only be exacerbated. As we 
move toward finalization of Phase I, I respectfully urge you to begin 
working on Phase 2 to protect the remainder of Staten Island while, as 
mentioned above, properly communicating with those residents.
                    lost amenities must be replaced.
    The shoreline property along Father Capodanno Boulevard has been a 
recreational destination for more than a century and, sadly, the many 
ballfields, picnic grounds, bocce courts, playgrounds, and even a skate 
park, will also be displaced by this new construction. Additionally, we 
have a successful small business that operates The Vanderbilt, South 
Fin Grill, and a Ben & Jerry's concession that need to be preserved. I 
respectfully urge Federal Government to work with the city of New York, 
its agencies, and the owners of the aforementioned small businesses to 
ensure that the community retains its ability to enjoy these amenities.
    Thank you again for your diligence on what is an issue of 
incredible importance in Staten Island's history. I look orward to 
working with you and will avail my office to any needs that you 
encounter.

    Mr. Donovan. The Chair now recognizes Deputy Regional 
Administrator Byrne for 5 minutes.

  STATEMENT OF MICHAEL BYRNE, DEPUTY REGIONAL ADMINISTRATOR, 
FEDERAL EMERGENCY MANAGEMENT AGENCY, REGION II, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Byrne. Thank you, Mr. Chairman. Good morning, Chairman 
Donovan and Members of the subcommittee. My name is Michael 
Byrne. I am the deputy regional administrator, and I am proud 
to be back here in New York as the Region II administrator, 
after serving as the Federal coordinating officer before in my 
time at the New York City Fire Department.
    I would like to take this opportunity to share some best 
practices and lessons we learned from Sandy, and I will also 
address some changes made by Congress that we have integrated 
into those to promote resiliency and to expedite recovery from 
a disaster.
    Thanks to new authorities given to us by Congress through 
the 2013 Sandy Recovery Improvement Act, or SRIA, we are now 
armed with more flexibility to implement our programs and to 
deliver Federal assistance; for example, in our Public 
Assistance Program, which provides funds to States and local 
governments and to eligible non-profits to cover debris 
removal, emergency work, and permanent repairs. To date, we 
have obligated over $14.5 billion in public assistance funding 
to New York and New Jersey. Thanks to the flexibility provided 
in SRIA and FEMA's internal commitment to make sure we 
emphasize resiliency, we have seen a significant increase in 
the project funding dedicated to mitigation. After Sandy, for 
every dollar that we spent to repair and restore, we spent an 
additional 34 to 85 cents to incorporate mitigation into these 
projects to improve resiliency, not just to build it back the 
way it was but to build it back stronger. This is a significant 
increase from past practices.
    In one example, the New York City Health and Hospitals 
Corporation received more than $1.7 billion for permanent 
repairs in critical building systems at Bellevue, Coler, Coney 
Island, and Metropolitan Hospitals. Metropolitan strikes a 
chord with me because that is where, when I was a kid growing 
up, that is where they took me to get patched up after various 
and sundry accidents. In this case, the Hospital Corporation 
received $755 million of the total for hazard mitigation. That 
is more than one-third of the total funding that went to 
building back stronger and better. This additional resilience 
will reduce the impact of future storms on these facilities 
that serve more than 1 million people every year.
    Another disaster program, the Hazard Mitigation Grant 
Program, or HMGP, which is one of our core programs, has spent 
nearly $1 billion it obligated in New York and New Jersey. This 
includes $45 million for this very hospital we are in today, 
the Staten Island University Hospital campus. Its funding, in 
coordination with funding from HUD, will elevate the utility 
systems in the main building to mitigate against future floods.
    Thanks to SRIA, we are also implementing advanced 
assistance funding. These funds allow us to give out funds on 
the front end to develop smarter mitigation plans and obtain 
data to prioritize and develop projects for the remaining funds 
to be used even more appropriately.
    In our other program area, the Individual Assistance 
Program, which is direct funding to families that are impacted, 
we provided over $1.4 billion in assistance to nearly 180,000 
individuals and households after Sandy. We worked closely with 
the city and State partners to set up mobile teams that went 
door-to-door to make sure survivors were reached and taken care 
of. I am proud to say it was FDNY's management team that led 
the effort and coordinated it, and we were proud to be a part 
of it. This approach has been codified in the way FEMA does 
business now to better protect survivors.
    In April 2013, FEMA created the Disaster Survivor 
Assistance Program, and these DSA teams have the training and 
the technology not just to wait for the call but to go out to 
the communities, to register, do case updates, and refer 
clients to other support.
    One of the biggest challenges in recovery is coordinating 
across State, Federal, and local government to make sure that 
we maximize the impact. In Sandy we established the New York-
New Jersey Federal Leadership Collaborative which provides an 
unparalleled format for Federal partners to conduct 
comprehensive, region-wide planning and identify opportunities 
to leverage dollars. This type of enhanced Federal recovery 
coordination continues to be implemented post-Sandy.
    We have also seen as an example increased collaboration 
amongst the departments and agencies for unified Federal 
review. We are required to do environmental and historic 
preservation reviews whenever we are using Federal funds, and 
11 departments and agencies have signed a Memorandum of 
Understanding to share that information so that each of our 
departments can work in a more streamlined way and reduce the 
review and duplication of effort.
    Sandy was one of the largest, most complex disasters we 
have responded to in the past decade. With the associated 
challenges came the opportunity to develop innovations and 
efficiencies, and we will continue to work with Congress and 
other partners to build more resilient communities before and 
after disaster.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Byrne follows:]
                  Prepared Statement of Michael Byrne
                             July 11, 2016
                              introduction
    Good morning Chairman Donovan and Members of the subcommittee. My 
name is Michael Byrne and I am the deputy regional administrator for 
FEMA Region II. I was also the Federal coordinating officer in New York 
during the Hurricane Sandy response. Thank you for the opportunity to 
discuss lessons learned from Hurricane Sandy, and how best practices 
have since been applied to promote resiliency and expedite the disaster 
recovery process.
    On October 29, 2012, Hurricane Sandy made landfall along the East 
Coast with impacts felt across more than a dozen States. The storm 
battered the densely-populated New York and New Jersey coasts, with 
heavy rain, strong winds, and record storm surges. In Sandy's immediate 
aftermath, more than 23,000 people sought refuge in temporary shelters, 
and more than 8.5 million customers lost power. The storm flooded 
numerous roads and tunnels, blocked transportation corridors and 
paralyzed the transit network in the Northeast, and deposited extensive 
debris along the coastline.
    The Federal Emergency Management Agency (FEMA) coordinated the 
Federal Government's immediate response and provided support for the 
critical emergency needs of affected States. Before landfall, we staged 
food, water, and equipment in the northeast. National Incident 
Management Assistance Teams were deployed to New York and New Jersey 
pre-landfall to work side-by-side with our local counterparts and 
address their needs. Within 48 hours of landfall, FEMA had more than 
1,200 people in the field going door-to-door in affected neighborhoods.
    Our efforts did not stop after the initial response phase. Today, 
FEMA Region II continues to coordinate the on-going recovery activities 
in New York and New Jersey. Our focus is to not only build back 
communities and the infrastructure serving them, but to help build them 
back better so they are more resilient before the next event.
    The magnitude of Sandy and its impacts reinforces the need to be 
creative and innovative in the way we respond to and recover from 
disasters to ensure we can be agile and get assistance to survivors and 
our State and local partners as soon as possible.
    On January 29, 2013, President Obama signed the Sandy Recovery 
Improvement Act (SRIA) of 2013. Thanks to new authorities given to us 
by Congress through SRIA, we are now able to deliver federal assistance 
to survivors in new and improved ways. Some of these changes were 
piloted for the first time throughout the Sandy recovery process.
    In this testimony, I will highlight some best practices and lessons 
learned during Sandy and how we have integrated those, as well as 
changes directed by SRIA, to promote resilience and expedite recovery.
                   delivery of fema recovery programs
Public Assistance Program
    As of June 2016, FEMA has obligated more than $14.5 billion in 
Federal funding through the Public Assistance (PA) program to cover 
debris removal, emergency work, and permanent work in both New York and 
New Jersey. Of this amount, nearly $3 billion is dedicated to adding 
mitigation measures to rebuilding projects to protect against future 
damage, as authorized under Section 406 of the Stafford Act.
    The PA program traditionally reimburses applicants for the actual 
costs of completed projects. New legislative authorities granted to 
FEMA in SRIA now allow applicants to request and obtain funding based 
on certified cost estimates to repair, restore, or replace a damaged 
facility. Once FEMA and the applicant agree on the damage assessment, 
scope of work, and estimated costs, the PA grant obligation is 
determined. The goals of these Public Assistance Alternative Procedures 
(PAAP) are to reduce costs to the Federal Government; increase 
flexibility in the administration of assistance; expedite the 
assistance so funding can be obligated prior to a project's start; and 
provide financial incentives for the timely and cost-effective 
completion of projects.
    The use of these alternative procedures is optional for States and 
Tribes but allows them to retain funding when there are cost underruns 
and utilize these funds for additional hazard mitigation measures and 
for activities that improve future PA program permanent work 
operations, such as training and planning for disaster recovery 
operations.
    Alternative procedures were used for more than 60 percent of PA 
project funding for New York (New Jersey elected not to use PAAP). 
Seventy-eight PAAP projects in NYC and Long Island to support repair 
and restoration were approved and funded, totaling $9.9 billion. This 
includes 33 projects for the New York City Housing Authority (NYCHA) 
which supports approximately $2.9 billion of work at more than 33 
campuses with 250 buildings. These PAAP projects also include a 
significant amount of mitigation. For every dollar spent on repair and 
restoration efforts, an additional $.85 has been spent on mitigation 
measures incorporated into the projects to help disaster-damaged 
buildings be more resilient to withstand potential future disasters. 
This number is nearly double the $.44 for non-PAAP permanent work 
grants.
    In one project, New York Health and Hospitals Corporation (HHC)--
representing the largest public hospital system in the country--
received more than $1.7 billion for permanent repairs of critical 
building systems at Bellevue, Metropolitan, Coler, and Coney Island 
hospitals. Thanks to the flexibility of the alternative procedures, the 
applicant was able to receive $755 million of the total project funding 
for hazard mitigation measures. These measures include constructing 
flood walls to protect the campus from flood inundation; elevating 
critical components of the mechanical, electrical, piping and fire 
systems; and installing additional pumping stations and enhanced storm 
water management measures. This additional resilience will reduce the 
impact of heavy rain, strong winds, and storm surge on these hospital 
facilities that are critical to the more than 1 million people who are 
served every year by this health care system.
    New York University (NYU) Langone Medical Center also received 
$1.13 billion under the PAAP program. Approximately $540 million was 
allocated for permanent repairs and restoration to damage throughout 
NYU's campus and $590 million for hazard mitigation against future 
storms, which includes installing exterior flood doors/barriers and 
additional sump pumps, and elevating the mechanical, electrical, and 
piping systems. This assistance has not only helped the hospital 
recover, but the increased resilience will help prevent the type of 
damage and power outage that forced the hospital to evacuate nearly 300 
patients including 45 critical care patients and 20 infants.
    FEMA recently completed a SRIA PAAP pilot program evaluation to 
capture best practices, lessons learned, and areas for improvement. The 
evaluation focused heavily on permanent work projects in New York. 
Initial conclusions show that alternative procedures allowed for 
flexibility and an opportunity to ``build back better'' by increasing 
the amount of hazard mitigation associated with projects. The 
evaluation also captured some areas for improvement, which FEMA is in 
the process of addressing for future disasters, including:
  <bullet> The need for clear and consistent guidance and tools to 
        effectively communicate the program.
  <bullet> Further streamlining processes associated with PAAP 
        projects, where possible, to lessen administrative burden.
    Since Sandy, FEMA has made additional significant changes to the PA 
program to more efficiently support our State, local, Tribal, and 
territorial (SLTT) partners through the disaster recovery process. 
These changes include the development and testing of a new PA program 
delivery model which reorganizes how we review and validate project 
requests to expedite funding to our partners for smaller, less-complex 
projects. The new delivery model also allows PA field management to 
determine the number of customer-facing program delivery managers 
needed based on the size and complexity of the disaster. PA staff will 
be assigned specialized tasks, will be given manageable workloads, and 
will input all project notes into a customer relations management 
system to ensure consistency of delivery and smooth transition in the 
event of staff turnover.
    The new process was recently implemented for the first time in 
response to the flooding and mudslides in Oregon, and we are 
incorporating lessons learned into continued implementation of the new 
delivery model. FEMA is currently undertaking a significant training 
effort to ensure all of our staff are trained on the new model before 
we begin to scale implementation Nationally.
    We also completed the new PA Program and Policy Guide which 
consolidated information from 5 publications and 63 policies to clarify 
processes and provide simplified direction to SLTT partners on how to 
use the program.
Hazard Mitigation Grant Program
    Following a Presidentially-declared disaster, the Hazard Mitigation 
Grant Program (HMGP) provides Federal funding to SLTT governments to 
implement long-term hazard mitigation measures. The HMGP was created to 
reduce the loss of life and property due to natural disasters, and 
enables mitigation measures to be implemented during the immediate 
recovery from a disaster. Unlike Stafford Act Section 406 mitigation 
funding, HMGP projects do not need to be related to infrastructure 
damaged by the Presidentially-declared disaster.
    Under the HMGP program for Hurricane Sandy, nearly $1 billion in 
funding has been obligated in New York and New Jersey for mitigation 
projects prioritized by the States. This includes an HMGP grant to the 
New York State Department of Transportation (NYSDOT) to fund mitigation 
measures for the State's most vulnerable bridges. NYSDOT conducted a 
risk assessment and determined 106 bridges required repairs and 
upgrades to mitigate against flooding and scouring (erosion due to 
water). To date, more than $490 million has been obligated for repairs 
and mitigation measures for these bridges.
    SRIA directs FEMA to streamline HMGP activities and adopt measures 
that will expedite the implementation of the program. Streamlining 
actions include identifying: Minimum criteria for complete 
applications; time frames for reviewing actions and decisions; phasing 
of projects; industry cost guides for estimates; industry design and 
construction standards; and pre-calculated benefits. SRIA also 
authorizes the use of Advance Assistance, allowing FEMA to provide up 
to 25 percent of the HMGP ceiling to applicants in advance of incurring 
eligible costs, in order to accelerate the implementation of the HMGP. 
Advance Assistance can be used to support a more strategic approach to 
a State's mitigation efforts, this includes developing mitigation plans 
and obtaining data to prioritize, select, and develop applications in a 
timely manner.
    FEMA published updated Hazard Mitigation Assistance (HMA) Guidance 
in 2015 to provide comprehensive information about the 3 HMA programs: 
HMGP, the Pre-Disaster Mitigation (PDM) program, and the Flood 
Mitigation Assistance (FMA) program. The Guidance includes information 
about streamlined program delivery, the expedited methodology for 
benefit-cost ratios for residential hurricane wind retrofit projects, 
and 23 job aids and resources to assist internal and external partners 
with implementing the programs.
Unified Federal Environmental and Historic Preservation Review
    Prior to obligating Federal funding for a disaster recovery 
project, Federal resource and regulatory agencies provide permits, 
Federal determinations, and/or special knowledge and expertise to 
inform the development of the project and ensure that environmental and 
historic preservation (EHP) requirements under their jurisdiction are 
met. All Federal agencies have a responsibility as stewards of the 
environment to help communities rebuild while effectively managing the 
use of natural, cultural, and historic resources.
    To help streamline and coordinate these efforts, SRIA directs the 
President--in consultation with FEMA, the Council on Environmental 
Quality, and the Advisory Council on Historic Preservation--to 
establish a unified interagency review process to ensure compliance 
with EHP requirements under Federal law relating to disaster recovery 
projects, while expediting the review time line. Eleven departments and 
agencies executed an interagency memorandum of understanding (MOU) on 
July 29, 2014, committing to support the Unified Federal Environmental 
and Historic Preservation Review (UFR) process.
    The UFR is a framework designed to enhance the ability of Federal 
agencies to expedite project environmental and historic preservation 
(EHP) reviews during disaster recovery by promoting:
  <bullet> Consistency and coordination among multiple Federal agency 
        EHP reviews;
  <bullet> Collaboration and coordination among Federal, Tribal, State, 
        and local agencies;
  <bullet> Leveraged and efficient use of agency staff and funds;
  <bullet> Quick resolution of coordination challenges;
  <bullet> More informed Federal decision making; and
  <bullet> Expedited execution and implementation of disaster recovery 
        projects.
UFR Implementation During Hurricane Sandy Recovery
    There were several situations during Hurricane Sandy recovery 
operations in which the UFR concept was successfully used to expedite 
the EHP review for Federally-funded projects. Roberto Clemente Park and 
the Rockaway Boardwalk received funding from both FEMA and the U.S. 
Department of Housing and Urban Development (HUD). HUD completed an 
Environmental Impact Statement (EIS) for Roberto Clemente Park and an 
Environmental Assessment (EA) for Rockaway Boardwalk to satisfy the 
National Environmental Policy Act (NEPA) requirements for these 
projects. FEMA was able to leverage the work already completed by HUD. 
Using the information contained in HUD's EIS and EA, FEMA was able to 
more rapidly complete its EHP reviews. This reduced overall review 
time, expedited review requirements for two multi-million-dollar 
projects, and eliminated duplication of effort.
    Today FEMA continues to implement the UFR process during review of 
long-term recovery projects associated with Hurricane Sandy. The New 
York City Housing Authority (NYCHA) has 33 campuses that are receiving 
both FEMA and HUD recovery grant funding. As part of the EHP review for 
projects associated with these NYCHA housing complexes, FEMA invited 
HUD and the Environmental Protection Agency (EPA) to be cooperating 
agencies on the development of the required Environmental Assessments. 
Inter-agency collaboration at the beginning of this project's 
formulation and EHP review has allowed for engagement of multiple 
technical experts and resource agencies as part of a single, 
coordinated review. This has facilitated a more comprehensive decision-
making process, and streamlined the review process for all of these 
Federal funding agencies and the NYCHA.
On-going UFR Efforts
    To further institutionalize the UFR to provide streamlined, 
coordinated support to SLTT partners during future responses, FEMA and 
Federal interagency partners have furthered the development and 
implementation of the UFR process since the execution of the UFR MOU in 
2014. We created new tools and mechanisms focused on improving and 
expediting Federal agencies' EHP reviews. Additional resources have 
been developed to better educate disaster applicants on the EHP 
requirements for Federally-funded disaster grants, while new 
coordination and data-sharing agreement documents help to promote and 
codify new collaborative approaches to EHP review during disaster 
recovery operations.
    The creation of the new UFR Advisor position has also been a major 
accomplishment in providing support to field recovery operations 
following disasters. This position serves an advisor to the Federal 
Disaster Recovery Coordinator (FDRC) whenever they are activated. 
During FDRC-led inter-agency recovery operations, the UFR Advisor works 
to identify and implement opportunities to expedite the EHP review 
process for recovery projects following that disaster.
    FEMA's UFR team, led by the National UFR Coordinator, continues 
their efforts to further educate Federal, State, Tribal, and local 
government partners on the UFR process. Full implementation of UFR is 
scheduled for the end of calendar year 2017.
Individual Assistance Program
    Through FEMA's Individual and Households Program, we provided more 
than $1.4 billion in assistance to nearly 180,000 individuals and 
households in New York and New Jersey after Hurricane Sandy. The 
majority of this funding was dedicated for housing assistance ($1.2 
billion), including costs for temporary housing needs and repair or 
replacement of residences.
    During the response, FEMA, along with Federal and State partners, 
set up fixed and mobile Disaster Recovery Centers where survivors could 
register for assistance and get their questions answered. We also had 
Community Relations staff working in affected communities assisting 
survivors and providing situational awareness back to disaster 
operations leadership.
    In April 2013, following lessons learned from Hurricane Sandy and 
in an effort to focus on a survivor-centric approach to providing 
disaster assistance, FEMA transformed the Community Relations function 
and developed the new Disaster Survivor Assistance (DSA) Program.
    DSA teams provide on-site registration, case status updates, and 
on-the-spot needs assessments including referrals to other Federal 
agencies and whole community partners. They address immediate and 
emerging needs by meeting survivors at their homes or in their 
communities, and use portable technology to maintain mobile operations. 
Teams use a GIS-based application to report and capture data that is 
instantly replicated to the FEMA GeoPlatform, ensuring that real-time 
information is available to support operations.
    DSA teams are a professional ``force multiplier'' that support SLTT 
and Federal requirements in the field. They address survivors' 
immediate needs while collecting targeted information that supports 
operational decision making and resource allocation. By leveraging in-
person, tailored information and referrals to whole community partners, 
DSA teams help FEMA best support the survivors who need the most help 
in heavily-affected areas.
    In addition to program delivery enhancements, a best practice that 
arose from Hurricane Sandy was increased coordination across Federal 
and SLTT stakeholders to incorporate resiliency and improve 
collaboration for long-term recovery projects.
                 federal disaster recovery coordination
    The National Disaster Recovery Framework (NDRF), first published in 
2011, is a guide to enable effective Federal long-term recovery support 
to impacted SLTT jurisdictions. It provides a flexible structure that 
enables disaster recovery managers to operate in a unified and 
collaborative manner to most effectively restore, redevelop, and 
revitalize the health, social, economic, natural, and economic fabric 
of a community after a disaster.
NDRF Implementation During Hurricane Sandy
    Hurricane Sandy was one of the first disasters following the NDRF's 
publication for which the new Federal recovery coordination structure 
was fully implemented. The 6 Recovery Support Functions outlined in the 
NDRF were activated and staffed to facilitate Federal recovery 
coordination: Economic Recovery; Health and Social Services; Housing; 
Infrastructure Systems; Natural and Cultural Resources; and Community 
Planning & Capacity Building.
    A New Jersey/New York Federal Leadership Resilience Collaborative 
(the Collaborative) was established and meets regularly to share 
information on key infrastructure projects and promote regional 
resilience. The Collaborative is comprised of Regional Administrators 
and other senior staff from FEMA, the U.S. Department of Interior, U.S. 
Department of Transportation, U.S. Army Corps of Engineers, EPA, and 
HUD. The Collaborative provides an unparalleled forum for Federal 
officials to develop a strategic approach to foster a more 
comprehensive region-wide planning for risk reductions and provides 
opportunities for leveraging Federal dollars.
    This early activation of the NDRF structure informed many lessons 
learned including further NDRF training for Federal personnel involved 
in the recovery, and synchronization of efforts between response and 
recovery activities.
    Since Hurricane Sandy, the Federal coordination mission has further 
evolved. In 2012, the Federal Government established the Recovery 
Support Function Leadership Group (RSFLG), a senior-level entity that 
meets monthly to coordinate responsibilities and resolve operational, 
resource, and preparedness issues relating to interagency recovery 
activities at the National level. The RSFLG led the interagency 
Readiness Assessment initiative to identify capabilities and gaps for 
the execution of Federal recovery mission in terms of budget, training, 
staffing, experience and other resources to enhance coordination, 
establish priorities, and drive decision making. Since September 2011, 
FEMA has appointed 23 Federal Disaster Recovery Coordinators (FDRC) 
after major disasters. FEMA continues to hire and train FDRCs and cadre 
staff Nation-wide to ensure FEMA is prepared to assist States with 
extraordinary disaster recovery needs to ensure effective coordination 
of Federal resources and support of SLTT goals to build back more 
resilient communities.
    FEMA and other Federal agencies continue to provide outreach to 
SLTT partners to help them apply NDRF concepts and principles in their 
own recovery preparedness efforts. FEMA hosts approximately 4 NDRF 
leadership workshops for Federal and SLTT officials each fiscal year. 
In 2015, FEMA published ``Effective Coordination of Recovery Resources 
for State, Tribal, Territorial and Local Incidents.'' This guide 
highlights the critical tasks and coordination challenges that State, 
local, Tribal and territorial governments most commonly face when 
managing a recovery process. It describes processes, considerations, 
and interdependencies of key actors in the recovery process to enhance 
coordination.
    The second edition of the NDRF was published in June 2016. This new 
edition highlights and further defines 8 recovery core capabilities--
critical functions to enable preparedness and recovery--as identified 
in the National Preparedness Goal. The primary value of the NDRF is its 
emphasis on preparing for recovery in advance of a disaster. The 
ability of a community to accelerate the recovery process begins with 
its efforts in pre-disaster preparedness, including coordinating with 
whole community partners, mitigating risks, incorporating community 
planning, identifying resources, and developing capacity to effectively 
manage the recovery process, through collaborative and inclusive 
planning.
                    national flood insurance program
    The National Flood Insurance Program (NFIP) is undergoing 
significant changes to strengthen the program, thanks in part to 
lessons learned from Hurricane Sandy. Historically, most insurance 
companies have excluded flood damage from homeowners' insurance. To 
address this need, Congress established the NFIP in 1968, which is 
administered by FEMA's Federal Insurance and Mitigation Administration 
(FIMA). The NFIP works with participating private insurance companies 
to market, sell, administer, and adjust claims for policyholders. By 
encouraging sound floodplain management efforts, the NFIP is estimated 
to save the Nation $1.7 billion annually in avoided flood losses. The 
NFIP helps homeowners, renters, and non-residential property owners to 
understand their risk and take action to protect themselves financially 
against the most common and costly type of disaster in the United 
States.
    The NFIP is currently $23 billion in debt due to major events like 
Hurricanes Katrina and Sandy, as well as subsidized rates to many 
policyholders that did not reflect their true risk. Recognizing the 
need for reforms, in 2012 Congress acted by passing the Biggert-Waters 
Flood Insurance Reform Act of 2012 (BW12) which required major changes 
to strengthen the fiscal soundness of the NFIP. In March 2014, Congress 
passed the Homeowners Flood Insurance Affordability Act of 2014 
(HFIAA), repealing and modifying certain provisions of BW12 while still 
requiring changes to major components of the NFIP including flood 
insurance, flood hazard mapping, grants, and flood plain management.
    After Hurricane Sandy, allegations arose that private insurers 
involved with NFIP underpaid thousands of homeowners on their flood 
insurance claims. To address these concerns, FEMA subsequently set up 
an unprecedented Sandy Claims Review process and contacted 142,000 NFIP 
policyholders offering a review of their claim, with nearly 19,300 
policy holders requesting one. To date, more than $70 million in 
additional funds have been paid to policy holders. Throughout this 
process, FEMA began identifying areas for NFIP reform, including: 
Implementing changes to the appeals process that will allow any 
homeowner who is disputing a claim to have access to their files and 
have full visibility on the adjudication process; and updating the 
arrangement between FEMA and private insurers to allow for more 
oversight and operational adjustments.
    To address legislative requirements and to further advance the 
program's goals, the NFIP established 5 key priorities for 2016:
  <bullet> Improve customer service.--FIMA is coordinating with the 
        Flood Insurance Advocate's office, outside customer experience 
        industry experts, and individual policy holders to identify 
        recommendations to improve the customer experience. Specific 
        initiatives include simplifying products, redesigning the risk 
        rating system to help customers clearly understand their flood 
        risk, and improving program and mapping change communications 
        to customers.
  <bullet> Improve understanding of risks.--To properly mitigate risk 
        through insurance, we must first get an accurate picture of the 
        current and future risk profiles of our communities. In 
        accordance with HFIAA requirements, FEMA is updating the flood 
        mapping program for the NFIP. This program will be reviewed by 
        the Technical Mapping Advisory Council (TMAC). When the updated 
        program is applied, it will result in technically credible 
        flood hazard data in all areas where Flood Insurance Rate Maps 
        are prepared or updated.
  <bullet> Reduce risks.--Mitigation projects can help improve 
        community resilience, reduce future loss of life or property 
        from flooding, and reduce future claims payments by the NFIP. 
        The Flood Mitigation Assistance (FMA) program provides grant 
        funds on an annual basis to SLTT governments for projects that 
        reduce or eliminate the long-term risk of flood damage to 
        structures insured by the NFIP. In fiscal year 2015, FEMA 
        obligated more than $71 million in FMA grant funds for 
        mitigation activities affecting approximately 293 properties. 
        These measures are expected to provide a savings to the NFIP of 
        approximately $142 million in reduced claims payments. For the 
        fiscal year 2016 FMA Grant Program, $199,000,000 is available 
        to SLTT governments. The application period closed on June 15 
        and applications will be reviewed to determine eligibility and 
        priority.
  <bullet> Engage private-sector insurers.--Survivors of flooding can 
        recover more quickly and more fully when they are insured 
        against losses, whether they purchase that insurance from the 
        NFIP or through the private market. Our priority is to ensure 
        that as many citizens as possible are covered for flood damage. 
        To better diversify financial risk in the future, FEMA is 
        exploring reinsurance and insurance-linked securities as a way 
        to improve the financial stability of the flood insurance 
        program. We are currently working with the reinsurance industry 
        on catastrophic flood modeling, gathering quotes to pilot 
        reinsurance for the NFIP, and exploring how to pay for 
        reinsurance.
  <bullet> Continue to implement legislative reforms.--FEMA has made 
        significant progress towards implementing BW12 and HFIAA 
        requirements. In addition to the initiatives previously 
        discussed, our current key priorities include:
  <bullet> Compiling data and beginning analysis of NFIP reform impacts 
        on small businesses, non-profits, and houses of worship;
  <bullet> Completing reports on policy holders whose premiums exceed 1 
        percent of their coverage value;
  <bullet> Continuing work on regulation changes, including but not 
        limited to installment plans and Write Your Own expense 
        allowance with actual costs;
  <bullet> Evaluating reinsurance options and developing a pilot 
        program; and
  <bullet> Designing an Affordability Framework that will provide 
        policy options for an affordability program supported by 
        qualitative and quantitative analyses.
                               conclusion
    Hurricane Sandy was one of the largest, most complex disasters we 
have responded to in the past decade. With the associated challenges 
comes the opportunity to develop innovations and efficiencies. We have 
been able to take lessons learned from the Sandy response and 
institutionalize changes and best practices to provide more streamlined 
delivery of assistance programs while incentivizing mitigation. Thanks 
to Congressional action and the passage of SRIA, FEMA now has 
additional authorities and more flexibility to administer programs and 
expedite recovery. We continue to work with Congress and our SLTT 
partners to build more resilient communities before and after a 
disaster.
    Again, thank you for the opportunity to testify today. I look 
forward to any questions the subcommittee may have.

    Mr. Donovan. Thank you, Mr. Byrne.
    The Chair now recognizes Ms. McFadden for 5 minutes.

   STATEMENT OF MARION MOLLEGEN MC FADDEN, DEPUTY ASSISTANT 
  SECRETARY, GRANT PROGRAMS, OFFICE OF COMMUNITY PLANNING AND 
 DEVELOPMENT, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. McFadden. Chairman Donovan, Ranking Member Payne, and 
Members of the subcommittee, I am Marion Mollegen McFadden, 
deputy assistant secretary for grant programs. On behalf of 
Secretary Julian Castro, I appreciate the opportunity to 
testify before you today.
    My testimony will cover 3 areas: The status of HUD's work 
to support long-term recovery from Hurricane Sandy; HUD's use 
of Federal disaster funds to increase resilience; and Federal 
and regional coordination after Sandy.
    Sandy was one of the most devastating and costly National 
disasters in the Nation's history, causing tens of billions of 
dollars in damage, as you mentioned, Mr. Chairman, and directly 
affecting more than 17 million people from Puerto Rico to 
Maine. Since enactment of the Disaster Relief Appropriations 
Act in January 2013, HUD has moved aggressively to ensure that 
homeowners and businesses received assistance, and that 
critical infrastructure investments are made with an eye toward 
future storms.
    The HUD Sandy recovery effort has resulted in new rules to 
better protect Federal recovery investment, requiring, for 
example, higher elevation of repaired homes located in areas 
prone to flooding, and requiring that larger infrastructure 
projects become more resilient. To date, Sandy grantees have 
worked together to assist more than 14,000 single-family 
households across the region, to fully repair their homes, or 
to help them find new housing. Billions of dollars of CDBG-DR 
assistance will also be invested in more resilient 
infrastructure.
    Recovery, however, can never be fast enough. There remain 
areas where homeowners are still waiting to return to their 
homes, and HUD is working vigorously and continuously to find 
ways to accelerate the recovery. For example, for the first 
time HUD is allowing grantees to advance funds to homeowners to 
start reconstruction while withholding final payment until 
project completion. HUD has also used its authority to grant 
dozens of Sandy-specific waivers in order to meet local 
recovery needs, including allowing the development of protected 
infrastructure investment on private property.
    Historically, disaster recovery has both done returning 
community assets to the location and condition that existed 
before the storm, but today extreme weather events demand a new 
focus on ensuring the resiliency of communities. HUD is 
investing new Federal resources in resiliency initiatives to 
serve as models for communities to prepare for the next 
disaster. Through the Rebuild By Design, or RBD initiative, HUD 
has allocated $930 million for flood mitigation projects to 
increase resilience throughout the Sandy-affected region. 
Through a competitive process, Rebuild By Design led to the 
selection of 7 projects across the region, including one 
particularly innovative project now underway here on Staten 
Island.
    Through RBD, New York State is investing $60 million of 
CDBG-DR funds in the Living Breakwaters project in Tottenville 
to construct a system of breakwaters that will span the South 
Shore. In New Jersey, $203 million of Rebuild By Design 
investments are also helping the cities of Hoboken, Weehawken 
and Jersey City to develop a new urban water strategy, with 
$146 million of Federal transit funds, and providing another 
example of Federal and local coordination of resilient 
investment.
    Similarly, to the National Disaster Resilience Competition, 
HUD has allocated nearly $1 billion of CDBG disaster recovery 
funds to support 13 State and local governments and their 
investment in new resilient infrastructure and housing, 
including $176 million for the city of New York to build new 
coastal flood protection for the neighborhoods of Southern 
Manhattan.
    Beyond the city's investments, across the country, Shelby 
County, Tennessee will invest $60 million to create new 
greenways to reduce flood risk in future storms. Iowa will 
receive more than $96 million for watershed improvements and 
more resilient housing. California will invest more than $70 
million for development of a biomass facility in response to 
wildfire damage. These and other initiatives growing out of the 
Sandy recovery have led to unprecedented new partnerships for 
HUD and other Federal, State, and local agencies. One of the 
most successful examples of those partnerships, as Mr. Byrne 
mentioned, is the Sandy Regional Infrastructure Resilience 
Coordination Group and Collaborative, led by FEMA.
    [Alarm.]
    Mr. Donovan. We didn't know who was going to be speaking at 
the time.
    [Laughter.]
    Mr. Donovan. You get a set of steak knives.
    [Laughter.]
    [Alarm.]
    Mr. Donovan. It is only going to last 45 minutes.
    [Laughter.]
    Mr. Donovan. That was some way to show off that they used 
the $45 million to put a new alarm system in.
    [Laughter.]
    Mr. Donovan. Are we good, Lou?
    Let's try, Ms. McFadden. I apologize.
    Ms. McFadden. Thank you, sir.
    The regional coordination body is comprised of Federal, 
State, and local officials with responsibility for coordinating 
development of Sandy infrastructure projects. The South Shore 
has benefited from this new level of coordination. HUD has 
supported residential buyouts, replenishment of dunes and 
breakwaters. FEMA has supported repairs and mitigation at a 
wastewater treatment plant and medical center. The National 
Park Service has supported remediation and improvement in Great 
Kills Park. Federal Highway Administration grants have been 
provided for road repairs and improvements. The Army Corps of 
Engineers has launched a coastal storm risk management study.
    Perhaps the best part about this regional coordination is 
that it has redefined how Federal agencies are working 
together. As a result of our work in assisting the Sandy 
recovery effort, Federal, State, and local partners are now 
better positioned to hit the ground running in the future in 
ways that were previously unknown.
    Thank you for the opportunity to testify today. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Ms. McFadden follows:]
             Prepared Statement of Marion Mollegen McFadden
                             July 11, 2016
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, I am Marion Mollegen McFadden, deputy assistant secretary 
for grant programs. On behalf of Secretary Julian Castro, I appreciate 
the opportunity to testify today regarding disaster recovery efforts 
related to Hurricane Sandy and how those investments in recovery are 
helping New York City and communities Nation-wide become more resilient 
and better prepared to withstand the next, inevitable extreme weather 
event. As former chief operating officer and acting executive director 
of the President's Hurricane Sandy Rebuilding Task Force, and as a 
native of Connecticut with friends and family affected by Hurricane 
Sandy in New York and New Jersey, I have a deep understanding of the 
recovery needs of this region. In my current position, I am responsible 
for overseeing key programs that promote affordable housing and 
community development, including the Community Development Block Grant 
(CDBG) program and CDBG-Disaster Recovery (CDBG-DR) grants. These 
grants help communities recover from and rebuild after natural 
disasters like Hurricane Sandy and, in doing so, to become more 
resilient.
    Today, I will cover 3 subjects: (1) The status of HUD's work to 
support long-term and resilient recovery from Hurricane Sandy; (2) the 
Department's initiatives to use disaster recovery resources to foster 
increased resilience; and (3) Federal and regional coordination of 
Sandy recovery efforts and how those efforts may serve as a template 
for future Federal coordination in response to major disasters and 
assist in building communities across the Nation that are better 
prepared to withstand those disasters.
         status of long-term and resilient recovery from sandy
    Almost 4 years after Sandy, I am sure you need no reminder that 
this storm was one of the most devastating and costly natural disasters 
in the Nation's history. Sandy caused tens of billions of dollars in 
damage and had immense varied impacts across much of the eastern United 
States, with damage most severe in New York, including the city of New 
York, as well as New Jersey, Connecticut, Rhode Island, and Maryland.
    Thousands of businesses and more than 650,000 homes were damaged or 
destroyed. The storm was directly responsible for over 150 fatalities 
across 8 countries; more than 70 in the United States alone. It yielded 
major flooding, structural damage, and power loss to over 8.5 million 
homes and businesses, directly affecting more than 17 million people 
from Puerto Rico to Maine.
    The Disaster Relief Appropriations Act (the Act) was signed into 
law on January 29, 2013, providing $15.2 billion in CDBG-DR funding to 
address Hurricane Sandy and other qualifying events that occurred in 
2011, 2012, and prospectively, 2013.\1\ HUD moved aggressively to 
implement the Act and to ensure that the specific requirements of the 
law are met. HUD allocates CDBG-DR funds to States and local 
governments who in turn, working with HUD and the community, design and 
implement customized recovery programs. HUD and Sandy grantees have 
worked together to ensure that homeowners and businesses receive timely 
and needed assistance in often densely-populated, urban environments; 
and that critical infrastructure is not only repaired but is located, 
relocated, or redesigned to meet the challenges posed by extreme 
weather events arising from climate change.
---------------------------------------------------------------------------
    \1\ The law provided $16 billion, however since these funds were 
appropriated in fiscal year 2013, they were subject to sequestration. 
This reduced the amount of CDBG-DR funds available under the Act to 
$15.2 billion, a 5 percent reduction.
---------------------------------------------------------------------------
    On February 6, 2013, HUD announced the first allocation of $5.4 
billion of CDBG-DR funds to 5 States and the city of New York to 
support Sandy recovery efforts. On March 5, 2013, HUD published a 
Federal Register Notice outlining the requirements for the use of those 
funds.
    As of July 2016, HUD had fully allocated the $15.2 billion 
available under the Act to address the damage caused by Sandy and other 
disasters in 2011, 2012, and 2013. Through a series of Federal Register 
Notices, HUD also established new rules to better protect these Federal 
investments, requiring, for example, higher elevation of repaired homes 
located in areas prone to flooding and requiring that larger 
infrastructure projects be built or rebuilt to be more resilient and to 
better withstand future storms.
    The Act required that HUD obligate all funds by September 30, 2017 
and recipients expend funds within 2 years of obligation. Congress also 
provided authority to extend this expenditure deadline, if needed. In 
prior appropriations of CDBG-DR funds, Congress set no limits on the 
time in which State and local governments must spend funds for 
recovery. This new provision introduced both an imperative among HUD 
grantees to expedite the commitment of funds, but has also caused 
grantees to move cautiously in ``obligating'' funds because each new 
obligation triggers the ``2-year clock'' on that portion of their 
grant.
    To date, Sandy grantees have used CDBG-DR funds to assist more than 
14,000 single-family households across the region to fully repair their 
homes or to help them find new housing. Thousands of small businesses 
have completed their repairs or have been provided with working capital 
or other assistance needed to return to operations. When fully 
expended, billions of dollars of CDBG-DR assistance will also have been 
invested in infrastructure repair, including investments to make 
communities more resilient when the next disaster strikes.
    Recovery, however, can never be fast enough for affected families, 
homeowners, and other victims. There remain areas where too many 
homeowners are still awaiting the housing assistance needed to return 
to their homes. HUD is working continuously with its Sandy grantees to 
explore ways to further expedite recovery. In housing rehabilitation, 
for instance, for the first time, HUD is allowing grantees to advance 
funds to homeowners to start reconstruction and to make interim 
payments during construction, while withholding the final payment until 
project completion. Also for the first time, HUD allowed homeowners to 
be reimbursed for work they completed before applying to CDBG-DR funded 
housing programs operated by New York State and the city of New York.
    HUD has also used authority under the Act to grant dozens of 
program-wide and grantee-specific waivers and to establish alternative 
statutory and regulatory requirements related to income documentation 
requirements, new housing construction and rental assistance--all 
geared to meeting local recovery needs and to remove unnecessary 
barriers to recovery. In the area of environmental regulation, the Act 
provided new authority to use the environmental reviews adopted by 
other Federal agencies to meet HUD's requirements, and HUD and the 
Federal Emergency Management Agency (FEMA) have executed an agreement 
that allows our grantees to use FEMA environmental reviews. Grantees 
have made good use of this authority.
    For HUD and any Federal agency charged with providing funds to 
assist in disaster recovery, the challenge is always balancing the 
imperative to provide timely assistance to storm-ravaged communities 
with the equally important priority of ensuring that funds are used 
appropriately and to maximum effect. Working with HUD's Office of the 
Inspector General (OIG), we have taken several important steps to 
strike this balance in Sandy recovery. The Sandy recovery has afforded 
HUD and the OIG new opportunities to collaborate in efforts to ensure a 
timely and fiscally sound recovery, including monthly conference calls 
to identify shared areas of concern and to coordinate monitoring and 
auditing strategies.
                         resilience initiatives
    Historically, disaster recovery has focused on returning community 
assets to the location and condition that existed before the storm. The 
increased frequency and extreme nature of weather events, however, 
demands a new focus on disaster mitigation and ensuring the resiliency 
of Federal investments in housing, business, and infrastructure. The 
resilience policies arising from Sandy recovery include the elevation 
of substantially damaged homes above the base flood elevation 
requirements and resilience performance standards for infrastructure. 
HUD is also investing new Federal resources in disaster mitigation 
initiatives to serve as models for communities Nation-wide as they 
prepare for the next disaster.
Rebuild by Design
    HUD allocated $930 million under the Act for flood mitigation 
projects developed through Rebuild by Design or ``RBD.'' RBD was a 
planning and design competition to increase resilience in the Sandy-
affected region. RBD was administered by HUD under the America COMPETES 
Reauthorization Act, in partnership with philanthropic, academic, and 
nonprofit organizations. HUD solicited the best talent and ideas from 
around the world to seek innovative solutions for communities working 
to rebuild and adapt in response to the disaster and to the future 
risks presented by natural hazards and climate change.
    The RBD competition resulted in the selection of 7 projects across 
the region, including one particularly innovative project that is 
underway right now, here on Staten Island.
    Sandy was particularly devastating for the Island's South Shore, 
with Tottenville, on the Island's southernmost point, experiencing some 
of the region's most destructive waves. Today, through RBD, New York 
State is investing $60 million of CDBG-DR funds to construct a system 
of in-water breakwaters in Tottenville. These breakwaters will be 
constructed of a concrete and recycled glass composite and will be 
seeded with oysters that will proliferate and physically grow the 
breakwater over time. This project, ``Living Breakwaters,'' is designed 
to provide the risk reduction associated with breakwaters along with 
environmental benefits--including improved water quality and new marine 
habitat. Once completed, Living Breakwaters will form a ``necklace'' of 
in-water structures along this stretch of Staten Island's South Shore.
    Living Breakwaters is also notable for its connection to other 
CDBG-DR investments that are underway here and are designed to make 
Staten Island more resilient to the next storm. Through its CDBG-DR-
funded Community Reconstruction program, the State is investing $6.75 
million in the Tottenville Shoreline Protection Project, which entails 
new flood risk management features as an additional coastal resiliency 
strategy for the area. These investments are in addition to the tens of 
millions of dollars in CDBG-DR funds expended by the State on Staten 
Island to buy out homeowners whose homes remain in harm's way and the 
tens of millions more in CDGB-DR funds expended by the city of New York 
to elevate homes on the Island and to make them more resilient.
    Across the Arthur Kill and the Kill Van Kull in New Jersey, $230 
million of RBD investments are also helping the cities of Hoboken, 
Weehawken, and Jersey City develop a new urban water strategy through 
the ``Resist, Delay, Store, and Discharge'' project. The project will 
include flood barriers designed to blend into the urban environment, 
green infrastructure elements and water pumping and discharge systems 
to better protect these low-lying communities from future flooding 
events. HUD's investment there is being further supported by $146 
million of Federal Transit funds to better protect the critical 
transportation infrastructure that is so important to not only New 
Jersey, but to New York as well. Federal and local coordination on 
these investments ensures that transit planning and investment is 
integrated with community development and resilience efforts.
    Across the harbor, the city of New York will invest $335 million of 
CDBG-DR funds for an RBD project to protect the vulnerable communities 
located in the floodplain on Manhattan's eastside, including thousands 
of public housing residents Through the Eastside Coastal Resiliency 
project, the city will build a flood risk management system that will 
include: (1) A landscaped berm or related risk reduction methods in 
East River Park and its adjacent areas; (2) permanent and deployable 
walls and pavilions within East River Park and its adjacent areas; (3) 
new or improved bridges over the Franklin D. Roosevelt East River 
Drive; and/or (4) related public amenities.
                national disaster resilience competition
    In January 2016, Secretary Castro announced the winners of the 
National Disaster Resilience Competition (NDRC), which exemplifies an 
expanded commitment by HUD to support State and local efforts to better 
prepare for the next disaster. NDRC projects are the result of an 
extensive community-led planning process and reflect an understanding 
by those communities that: (i) The costs of recovery from future 
disasters can be reduced by investments today in innovative and 
workable mitigation and resilience strategies; and (ii) investments in 
mitigation and resilience can also grow the local economy.
    HUD allocated nearly $1 billion of CDBG-DR funds provided under the 
Act to the NDRC in order to support grassroots-driven investment in new 
resilient infrastructure and housing, including $176 million for the 
city of New York and $35 million for New York State.
    The NDRC took place in two phases, with final winners selected from 
40 States and local communities that were designated as finalists. The 
40 finalists were asked to submit specific projects that would advance 
their community's resilience plans. More than 25 Federal agencies or 
offices, and 100 industry experts were involved in the implementation 
of the 16-month long competition. In the end, 13 State and local 
governments were selected to receive funds for innovative resilience 
projects that will not only help them recover from a recent disaster, 
but to better prepare for the next one. The effort benefitted from a 
philanthropic partnership with the Rockefeller Foundation, which 
dedicated $8 million to teaching competing jurisdictions best practices 
in the growing field of resilience and assisting them with planning.
    The range of ideas and strategies emerging from the competition has 
been simply remarkable. Initially, $181 million was set aside for 
projects in New York and New Jersey, but the Sandy NDRC proposals were 
so strong that they were awarded a combined total of $231 million for 
the city of New York, New York State, and New Jersey.
    Shelby County, Tennessee will invest $60 million of CDBG-DR funding 
to create new recreation areas and greenways in the floodplain to 
reduce the flood risk in future storms. Minot, North Dakota will use 
$74 million of CDBG-DR funds to buy out homes that are in harms' way, 
restore open space, and construct new affordable housing away from 
high-risk areas but with better access to transit, jobs, and services--
strengthening community prospects for economic growth and mobility. The 
State of Iowa will receive more than $96 million to monitor and improve 
nine watersheds State-wide that were impacted by flooding, while also 
rehabilitating flood-damaged housing to make it more resilient.
    NDRC also recognizes that preparing for natural disasters is not 
just about flooding. California will invest more than $70 million of 
CDBG-DR funds in response to the 2013 Rim Fire. Since that 2013 event, 
large wildfires throughout the State have burned nearly 400,000 acres 
and destroyed hundreds of homes and structures. The California NDRC 
project will pilot a Community and Watershed Resilience program in 
Tuolumne County, through development of a biomass and wood products 
facility for biomass removed from the forest through restoration and 
thinning. The project also includes community resilience centers to 
meet the needs of rural communities in times of disaster while also 
providing job training opportunities in forest and watershed 
management.
         federal and regional coordination in disaster recovery
    RBD and NDRC both represent initiatives growing out of the Sandy 
recovery that have precipitated new partnerships for HUD and other 
Federal, State, and local agencies. Following a disaster, HUD has 
historically partnered with FEMA and the Small Business Administration, 
to access those agencies' data to determine the unmet housing, economic 
revitalization, and infrastructure needs that remain to be addressed 
using CDBG-DR funds. Sandy recovery efforts, however, have resulted in 
an unprecedented unified Federal and regional recovery effort.
    One of the most tangible and successful examples of that 
coordination is the Sandy Regional Infrastructure Resilience 
Coordination Group (SRIRC), led by HUD and FEMA. The SRIRC is comprised 
of Federal, State, and local officials with responsibility for 
coordinating the development of Sandy public infrastructure projects. 
Beginning in January 2014 and prior to the identification of specific 
State and local infrastructure projects, the SRIRC met monthly to 
better understand agency funding streams, statutory and regulatory 
requirements and other mandates that could impact Federal interagency 
coordination to support various types of infrastructure investments. 
The SRIRC developed an evolving database that allows it to identify 
Federally-supported projects, and to map those projects to identify 
geographic areas of overlap where interagency coordination is needed. 
The SRIRC has also formed sector-specific teams of Federal, State, and 
local officials in the areas such as transportation, energy, and 
coastal resilience to focus on project scope and time lines, including 
the Federal permitting process and construction sequencing. Grantees 
have praised the SRIRC as a useful forum for coordinating the most 
complex infrastructure projects, which touch multiple Federal, State, 
and local agencies for review and permitting.
    The South Shore of Staten Island has benefitted from this new level 
of coordination. Federal agencies have taken an area-wide look at 
resilience that considers and coordinates short-term and long-term 
Federal investments. HUD has supported residential buyouts, dunes, and 
breakwaters; FEMA has supported repairs and mitigation at a wastewater 
treatment plant and medical center; the National Park Service has 
supported remediation and improvements at Great Kills Park; Federal 
Highways Administration grants have been provided for road repairs and 
improvements; and the Army Corps of Engineers has launched a coastal 
storm risk management study.
    Perhaps most exciting about this regional coordination is that it 
has redefined how Federal agencies are working together. As a result of 
our work in assisting the Sandy recovery effort, Federal, State, and 
local partners will now be more able to hit the ground running in the 
future, in ways previously unknown, because agency staff have a vastly 
greater understanding of each other's programs and procedures and we 
know the right people to contact for speedy resolution of issues. HUD 
has played an important role, working with FEMA to establish the 
Unified Federal Review. The UFR was established by 11 Federal 
departments and agencies to expedite environmental and historic 
preservation reviews for future disaster declarations.
    Thank you again for the opportunity to testify today. I would be 
pleased to answer any questions you may have.

    Mr. Donovan. Thank you, Ms. McFadden.
    The Chair now recognizes Mr. Zarrilli for 5 minutes.

  STATEMENT OF DANIEL A. ZARRILLI, CHIEF RESILIENCE OFFICER, 
        OFFICE OF THE MAYOR, CITY OF NEW YORK, NEW YORK

    Mr. Zarrilli. Good morning, Chair Donovan and Ranking 
Member Payne. My name is Daniel Zarrilli. I am the senior 
director for climate policy and programs at the New York City 
Mayor's Office. I would like to congratulate Chairman Donovan 
on his appointment as Chair of this committee, and on behalf of 
Mayor Bill de Blasio I want to thank the Members for this 
opportunity to speak about our efforts to build a more prepared 
and more resilient city.
    Nearly 4 years ago Hurricane Sandy hit New York City with 
unprecedented force, tragically killing 44 New Yorkers and 
causing over $19 billion in damages and lost economic activity 
in the city. Here on Staten Island we saw some of the worst of 
Sandy. In the Staten Island University Hospital, where we are 
having this discussion today, it was nearly inundated, which is 
why we were proud to support the hospital with $28 million for 
a resiliency program, and why we are working with so many 
partners on critical resiliency investments on Staten Island 
and across the city.
    Today I plan to briefly describe the city's resiliency 
program and how we are investing to ensure that our city will 
be ready to withstand and is much stronger from the impacts of 
climate change and other 21st Century threats. I also plan to 
offer suggestions for how Congress and our Federal partners can 
continue to support cities like New York with disaster recovery 
and preparing for the inevitable impacts that climate change 
will bring.
    In the aftermath of Sandy, we put forth a comprehensive 
plan to rebuild the neighborhoods hardest hit by Sandy and to 
also prepare our city for the impacts of climate change. That 
plan, ``A Stronger, More Resilient New York,'' launched our 
over $20 billion resiliency program, improving our coastline, 
upgrading our buildings, rebuilding homes, improving our 
infrastructure, and generally improving our neighborhoods 
across the city.
    In April 2015, Mayor de Blasio expanded and accelerated 
that work through OneNYC program. With OneNYC, we are putting 
in place a multi-layered resiliency plan, making our city 
safer, and we are holding ourselves accountable for these 
results by publishing an annual progress report of that work, 
the last of which was published in April 2016.
    In so many ways, Federal support has been critical to these 
efforts. We have been blessed with the necessary funding, we 
have seen innovation, and we have witnessed challenges along 
the way. In the spirit of constructive feedback, I would like 
to offer several recommendations for how Congress and our 
Federal partners can better support cities as we continue to 
recover from Sandy and prepare for the future.
    First, in response to Hurricane Sandy, the city and FEMA 
developed a hotel sheltering program and our Rapid Repairs 
Program, two innovative sheltering solutions tailored to an 
urban environment where traditional approaches like trailers 
are unworkable. Between November 2012 and September 2013, the 
hotel program provided emergency shelter in city hotels to over 
1,300 displaced households. Rapid Repairs restored basic 
services to over 20,000 flooded homes and helping those 
households avoid long-term displacement. Both programs could be 
a model for responding to displacement in the future.
    Second, Congress authorized an innovative FEMA public 
assistance pilot program called Section 428. To date, the city 
has been the single biggest user of this program, with nearly 
$5.9 billion worth of infrastructure investments underway. This 
more flexible and accountable program should be made a 
permanent feature of the Federal Government's disaster response 
and resiliency toolkit.
    Third, FEMA's National Flood Insurance Program requires 
fundamental reform. Congress should act to expand mitigation 
options and funding, including increasing pre-disaster 
mitigation funding and offering partial credit on insurance 
premiums for partial mitigation measures; and No. 2, to ensure 
the affordability of flood insurance for those most in need of 
its coverage.
    Fourth, the city is working toward a successful resolution 
to its appeal of FEMA's 2015 flood insurance rate maps, which 
we have demonstrated overstate the size of the city's 100-year 
flood plain due to inaccuracies in FEMA's underlying analysis. 
We urge FEMA to resolve the appeal and adopt accurate flood 
maps for the city.
    Fifth, FEMA's Hazard Mitigation Grant Program has been a 
mechanism for the city to fund long-term and cost-effective 
resiliency projects, but to ensure that funds go where they are 
needed most, FEMA should consider issuing guidance to States to 
direct a fair share of HMGP dollars to local jurisdictions most 
affected by disaster.
    Sixth, climate change is proving we need to improve Federal 
coordination to expedite implementation of key projects. For 
example, as you noted, although $32 million in USDA funds have 
been secured for bluebelts here on Staten Island, it is 
stalling because USDA and Army Corps can't agree on 
conservation easements. Benefit/cost ratios could be 
rationalized across agencies since each agency has its own 
methodology. These methodologies should be amended to support 
faster recovery and improved so as not to disadvantage low-
income communities when comparing mitigation projects. 
Similarly, Congress should also urge Federal agencies to 
coordinate environmental reviews when multiple agencies 
contribute funding to a single project.
    Finally, as we all know, fuel shortages plagued the city 
for weeks after Hurricane Sandy, and the lack of information 
sharing regarding the fuel supply made decision making 
difficult. Congress should urge the Department of Energy to 
establish data-sharing requirements for the industry to report 
critical facility-specific information.
    To conclude, as our understanding of the impacts of climate 
change continues to improve, we are improving now to reduce 
risk and prepare for the future. This requires even greater 
partnership with Congress and the Federal Government to support 
local climate adaptation. We thank our Federal partners here 
today for their tireless work to support recovery and 
resiliency in New York City and urge them to continue to help 
us maintain our momentum as we build a more resilient city.
    I would like to thank Chairman Donovan and Ranking Member 
Payne for their leadership as we work together to confront the 
challenges that climate change will bring to our Nation. Thank 
you very much.
    [The prepared statement of Mr. Zarrilli follows:]
                Prepared Statement of Daniel A. Zarrilli
                             July 11, 2016
                              introduction
    Good afternoon. My name is Daniel Zarrilli and I am the senior 
director for climate policy and programs and the chief resilience 
officer at the New York City Mayor's Office. I want to congratulate 
Congressman Donovan on his recent appointment as chair of the 
Subcommittee on Emergency Preparedness, Response, and Communications. 
On behalf of New York City, we are honored to have a New Yorker in this 
unique position of leadership. I would like to thank the Chairman and 
all the Members for the opportunity to speak today about New York 
City's experience building a more prepared and resilient city.
    Nearly 4 years ago, Hurricane Sandy hit New York City with 
unprecedented force, tragically killing 44 New Yorkers, and causing 
over $19 billion in damages and lost economic activity. Neighborhoods 
were devastated: 88,700 buildings were flooded; 23,400 businesses were 
impacted; and our region's infrastructure was seriously disrupted. Over 
2,000,000 residents were without power for weeks and fuel shortages 
persisted for over a month. In short, Sandy highlighted New York City's 
vulnerability to climate change and rising seas and underscores the 
actions we've taken since then to build a stronger, more resilient 
city.
    It is particularly meaningful that we here on the East Shore of 
Staten Island at Staten Island University Hospital (SIUH) discussing 
resiliency. This neighborhood saw some of the worst of Sandy, and this 
hospital was nearly inundated, which is why we were proud to support 
the hospital with $28 million for its resiliency program, and why we 
are working with many partners on critical neighborhood infrastructure 
investments, coastal protections, and housing recovery efforts.
    Today, I aim to accomplish two things. First, I would like to walk 
the committee through our multi-layered resiliency plan and how we are 
making investments to ensure that our neighborhoods, economy, and 
public services will be ready to withstand and emerge stronger from the 
impacts of climate change and other 21st Century threats. Second, I 
would like to offer suggestions on how Congress and our Federal 
partners can better support cities with preparing for the inevitable 
physical and humanitarian disasters that climate change will bring.
                          plans for the future
Special Initiative for Rebuilding and Resiliency
    In the aftermath of Hurricane Sandy, it was imperative that New 
York City emerge from Hurricane Sandy a stronger and more resilient 
city--one that did not just prepare for the next storm, but one that 
invested against a wider range of threats--all guided by the best 
available science. We turned to the New York City Panel on Climate 
Change (NPCC), an independent body of leading climate scientists who 
advise the Mayor on the latest climate change projections. The latest 
projections are challenging.
    By the 2050s, according to just the middle-range projections by the 
NPCC, average New York City temperatures are projected to increase 
between 4.1F and 5.7F, annual precipitation is projected to increase 
between 4 and 11 percent, and sea levels are projected to rise between 
11 inches and 21 inches, on top of a foot of sea level rise that we 
have already witnessed since 1900. And extreme events, like flooding, 
are becoming more frequent and more intense. What this means is that a 
similar Sandy-like event in 2050 could cause $90 billion in damage and 
lost economic activity--compared to Sandy's $19 billion.\1\
---------------------------------------------------------------------------
    \1\ For an in-depth look at the NPCC's projections, see, Building 
the Knowledge Base for Climate Resilience: New York City Panel on 
Climate Change 2015 Report, vol. 1336 of Annals of the New York Academy 
of Sciences, January 2015, http://onlinelibrary.wiley.com/doi/10.1111/
nyas.2015.1336.issue-1/issuetoc.
---------------------------------------------------------------------------
    In 2013, based on these NPCC projections, the Special Initiative 
for Rebuilding and Resiliency (or SIRR) put forth a comprehensive plan 
to rebuild neighborhoods hardest hit by Sandy and to prepare our city-
wide infrastructure for the future. The resulting document, A Stronger, 
More Resilient New York, described the city's $20 billion resiliency 
program that is now well underway.\2\
---------------------------------------------------------------------------
    \2\ The full version of A Stronger, More Resilient New York can be 
found at: http://www.nyc.gov/html/sirr/html/report/report.shtml.
---------------------------------------------------------------------------
One New York: The Plan for a Strong and Just City
    In April 2015, Mayor de Blasio released the ground-breaking One New 
York: The Plan for a Strong and Just City (OneNYC), a strategic plan 
for inclusive growth and climate action.\3\ OneNYC, supported by our 
partnership with 100 Resilient Cities, expanded and accelerated that 
SIRR program.
---------------------------------------------------------------------------
    \3\ The full version of One New York: The Plan for a Strong and 
Just City can be found at: http://www.nyc.gov/html/onenyc/downloads/
pdf/publications/OneNYC.pdf.
---------------------------------------------------------------------------
    It also injected a focus on equity into the city's climate 
resiliency program. Equity and climate change are inescapably linked. 
Although climate change affects everyone, its impacts are not equally 
felt. Simply put, the poorest and most vulnerable are the hardest hit 
and least able to recover. That is why addressing the growing economic 
and social inequality facing the city's most vulnerable communities is 
now at the heart of our resiliency work.
Putting Our Plans into Action
    With OneNYC, our multi-layered approach to resiliency encompasses 4 
key areas--neighborhoods, buildings, infrastructure, and coastal 
defense. I will briefly describe a few key highlights of our 
accomplishments in those areas.\4\
---------------------------------------------------------------------------
    \4\ One April 22, 2016, Mayor De Blasio released the OneNYC 2016 
Progress Report, detailing the city's year-to-date progress delivering 
on our OneNYC commitments. The full version of the report can found at: 
http://www1.nyc.gov/html/onenyc/downloads/pdf/publications/OneNYC-2016-
Progress-Report.pdf.
---------------------------------------------------------------------------
            Neighborhoods
    Our neighborhoods--the places where we live, work, and play--are 
the first layer of our resiliency efforts. Our goal is to make every 
single New Yorker safer by strengthening the social and economic 
resiliency of their communities.
    We have improved risk communication and emergency preparedness by 
updating our evacuation maps, releasing a new comprehensive hazard 
mitigation plan, and expanding neighborhood-based programs. We are 
investing to make emergency shelter sites accessible to New Yorkers 
with disabilities.
    We are also focused on small business resiliency. To date, we have 
invested over $54 million in Sandy impacted small businesses. We have 
also created over 2,000 jobs and hired over 900 residents from Sandy-
impacted areas, continuing our commitment to ensure that New Yorkers 
have opportunities to participate in the recovery process in their 
neighborhoods.\5\
---------------------------------------------------------------------------
    \5\ For an extensive list of city's resiliency projects currently 
underway, please visit: https://maps.nyc.gov/resiliency/.
---------------------------------------------------------------------------
            Buildings
    The second layer is working to upgrade the city's buildings to 
withstand climate change impacts. Sandy showed us that structures built 
to the latest codes perform well in storms and better protect their 
inhabitants. We have learned from this and have already upgraded the 
city's building codes, including 16 new local laws to account for 
vulnerabilities related to extreme weather and climate change.
            Infrastructure
    The third layer of the city's multilayered resiliency strategy is 
adapting the city's infrastructure and supply chains to climate 
impacts. We are directly investing billions of dollars into the city's 
infrastructure and we are collaborating with our many regional 
infrastructure partners to ensure that their investments align with the 
city's vision for resiliency and affordability.
            Coastal Defense
    Finally, the fourth layer of our OneNYC resiliency program is 
strengthening our coastal defenses against sea level rise, wave action, 
and storm surge. When Sandy struck, our coastal defenses were nearly 
non-existent. In response to the devastation, the city released and 
began implementing its first-ever comprehensive coastal protection 
plan. Using this as a foundation, OneNYC aims to further reduce the 
city's coastal vulnerabilities.
                           supporting cities
    As we seek to implement this recovery and resiliency program, 
Federal support has been critical. Throughout the recovery process, we 
have seen the innovations that Federal agencies can make to adjust to 
the specific challenges of urban disasters, and we have also witnessed 
their limitations. The converging effects of urbanization and climate 
change present an enormous challenge to cities, which in turn, will 
require even greater Federal support. I would now like to offer several 
options for how Congress and our Federal partners can better support 
cities with preparing for the magnitude and urgency of climate change.
Support Urban Mass Shelter Programs
    First, the city's FEMA-funded programs to shelter New Yorkers 
displaced by Hurricane Sandy is a clear example of what works.
    Sheltering survivors displaced by a disaster is a challenge 
anywhere, but is often made far more complex in a densely-populated 
urban environment, like New York, where traditional approaches (such as 
trailers) are unworkable.\6\ Sandy displaced nearly 70,000 people 
across the city, completely overwhelming our emergency shelter options. 
In response, the city in partnership with FEMA developed the Hotel 
Essential Sheltering Program (HESP) and the Rapid Repairs Program 
(RRP), two innovative sheltering solutions tailored to an urban 
environment.
---------------------------------------------------------------------------
    \6\ For in-depth look at the success of the Rapid Repairs Program 
see Danielle Baussan and Miranda Peterson, Lessons from the Storm, 
Center for American Progress, October 2015.
---------------------------------------------------------------------------
    Between November 18, 2012 and September 30, 2013 HESP, provided 
safe emergency shelter in hotels across the city to over 1,300 
households displaced due to the storm. RRP restored heat, hot water, 
and power to affected residences and sealed up damaged building 
envelopes, thereby reducing the demand for other shelter options and 
allowing individuals to return to or remain in their homes. In total, 
RRP helped 20,000 households avoid long-term displacement by restoring 
basic services in less than 4 months and significant savings to the 
taxpayer.\7\
---------------------------------------------------------------------------
    \7\ A study by FEMA's chief economist found that temporary housing 
in three events prior to Sandy cost on average $173,000 per unit. The 
unit cost for RRP was approximately $30,700 per unit. See Darlene 
Bouma, Chief Economist to Brad Kieserman, Chief Counsel, December 3, 
2012, FEMA Preliminary Business Case for Sheltering and Temporary 
Essential Power (STEP) Pilot Program. FEMA-4085-DR-NY.
---------------------------------------------------------------------------
    Both programs allowed the city to prevent a public health crisis 
and provide sheltering in a cost-effective way.\8\ And although Rapid 
Repairs was ad hoc, it worked. Had the city not been limited by red 
tape, it would have worked even better since we are now returning to 
some of these same homes in our Build it Back program. Nevertheless, 
Rapid Repairs was a clear success and, with the right support, could be 
a model for responding to mass displacement in urban contexts in the 
future.
---------------------------------------------------------------------------
    \8\[Sic.]
---------------------------------------------------------------------------
Make FEMA's 428 Program Permanent
    Second, Congress authorized an innovative Public Assistance pilot 
program called Section 428, designed to expedite disaster recovery, 
improve flexibility to support better mitigation investments, and 
reduce overall administrative costs.
    To date, the city has been the single biggest user of this program, 
with nearly $5.9 billion worth of Section 428 projects. From our point 
of view, this program has been a success; the capped grants incentivize 
efficiency while providing flexibility to reprogram funds when needed 
for enhanced mitigation. We support the Section 428 Program and believe 
it should be made a permanent feature of the Federal Government's 
disaster response and resiliency toolkit.
Reform FEMA's National Flood Insurance Program
    Third, FEMA's National Flood Insurance Program (NFIP) requires 
fundamental reform. Thanks to Congressional action in 2014, devastating 
rate increases have been slowed down, but the risks of continued 
premium increases, foreclosures, and loss of value remains.
    The NFIP is due to be reauthorized in 2017. Congress should act to: 
(1) Better protect ratepayers and taxpayers by mandating FEMA to expand 
mitigation options and funding, including increasing pre-disaster 
mitigation funding and offering partial credit on insurance premiums 
for partial mitigation measures that make sense for the building stock 
of a dense urban environment, and (2) ensure affordability of flood 
insurance for those least able to pay for this vital financial product 
based on the National Academy of Sciences affordability reports. This 
is an urgent matter given that flooding is the fastest-growing and most 
costly natural disaster in the country, a problem which climate change 
will only make worse.
Ensure FEMA's Flood Maps are Accurate
    Fourth, the city is working towards a successful resolution to its 
appeal of FEMA's 2015 Preliminary Flood Insurance Rate Maps, which 
overstate the size of the city's 100-year floodplain due to 
inaccuracies in FEMA's underlying analysis, which ultimately affects 
not just the city and Westchester, but much of coastal New Jersey as 
well. Conveying flood risk accurately to our residents is among the 
city's top priorities. Inaccurate FIRMs would not only undermine the 
integrity upon which the city's resiliency program rests. They would 
place an unnecessary financial burden on low and moderate income 
residents. Accurate flood maps are also critical to the success of the 
NFIP. That is why the city is urging FEMA to resolve the appeal and 
adopt accurate flood maps, consistent with the city's appeal, as 
quickly as possible.\9\
---------------------------------------------------------------------------
    \9\ The city has been collaborating on this issue with regional 
partners including the Port Authority of NY & NJ, who recently won 
their mapping appeal at Newark Liberty International Airport.
---------------------------------------------------------------------------
Improve FEMA's Hazard Mitigation Grant Program
    Fifth, FEMA's Hazard Mitigation Grant Program (HMGP) has been a 
useful mechanism for New York City to fund long-term and cost-effective 
resiliency projects. Through Section 404 of the Stafford Act, this 
post-disaster grant is available after a Presidential declaration, and 
funds are awarded to States based on a percentage of State-wide damage.
    In practice, this means that funds may not necessarily be directed 
to areas that suffered the greatest damage. For example, New York City 
incurred nearly 70 percent of Sandy-related damage in New York State 
but received less than 30 percent of HMGP funds. To ensure funds go 
where they are needed most, FEMA should consider issuing guidance to 
States to direct a fair share of HMGP dollars to jurisdictions affected 
by the applicable disaster declaration.
Improving Federal Coordination
    Sixth, climate change is proving that we need every tool at our 
disposal to mitigate its effects. This means cities like New York are 
looking to Congress to expand funding eligibility and improve Federal 
coordination for flood mitigation strategies, like stormwater pumps and 
storage tanks, as well as non-structural measures like bluebelts and 
green infrastructure, to manage the risks from coastal flooding and 
heavy rainfall.
    For example, although $32 million in Federal USDA Emergency 
Watershed Protection funds has been secured for an award-winning 
Bluebelt Project here on Staten Island, it is stalling because the USDA 
and USACE cannot agree on conservation easements at the project site. 
Both Federal agencies want to use the land for the exact same thing. 
Congress should continue to underscore the imperative that both Federal 
agencies come to an agreement immediately.
    We are also looking to Congress to help rationalize how Federal 
agencies calculate their benefit-cost ratios, since each agency has its 
own methodology. These methodologies should be streamlined to support 
faster recovery and mitigation investments. Furthermore, benefit-cost 
ratios are biased by higher property values, placing lower-income 
communities at a disadvantage when comparing mitigation projects.
    Similarly, Congress should also urge Federal agencies to coordinate 
environmental review policies. For example, HUD and FEMA fund the same 
projects here in the city. However, despite HUD performing an 
environmental review, FEMA may not allow a project to move forward 
until its own review is complete. As a result, vital housing resiliency 
projects are often delayed by these duplicate efforts and 
administrative burdens.
Improve Situational Awareness of the Liquid Fuel Supply
    And finally, New York City experienced fuel shortages for weeks 
following Hurricane Sandy. The lack of data and information sharing 
regarding the fuel supply and movements created a situation where 
public-sector officials were unable to maintain adequate situational 
awareness to make sound public safety decisions. Congress should urge 
the Department of Energy to establish data-sharing requirements for the 
industry to report critical information on a facility-specific basis. 
Federal agencies should also consider conducting regional exercises and 
drills to address fuel supply product emergencies or shortages.
                               conclusion
    To conclude, our understanding of the impacts of climate change 
continues to improve, highlighting the actions that we must take to 
reduce risk and prepare for the future. To do this, we will require an 
expanded partnership with Congress and the Federal Government to better 
support local climate preparedness and resiliency. We thank our Federal 
partners here today for their tireless work to support recovery and 
resiliency in New York City and urge them to help us maintain our 
momentum as we build a more resilient city. And I'd like to thank 
Chairman Donovan and the committee Members for their leadership as we 
work together to confront the challenges that climate change will bring 
to our Nation. Thank you.

    Mr. Donovan. Thank you, Mr. Zarrilli.
    I thank each of you not only for your testimony today but 
for your service to our Nation, particularly the communities 
which Don and I represent.
    We have a few questions for the panel. I will begin just by 
asking Mr. Byrne, one of the big projects that I spoke about 
that Staten Island is very concerned with is the sea wall that 
is being constructed by the Army Corps of Engineers. It is our 
understanding that they are building this to specifications 
that FEMA has set, standards that FEMA has set, so that the 
people who live in the flood maps will see reductions in the 
premiums to their flood insurance. It would also include 
mitigation in those premiums for people who still live in the 
parts of the flood zone that still need the wall to be built.
    Is that coming along as we all believe it to be?
    Mr. Byrne. Yes, Mr. Chairman. First of all, we are working 
closely with the Corps on this. The Corps clearly understands 
what the threshold is to allow us to act. It is really what we 
call the 
50/100 percent rule. It is 50 percent complete, 100 percent 
funded. The Corps is well aware of this. We are in regular 
contact with them on this, and we will take the actions that 
are appropriate once those two thresholds are met.
    Mr. Donovan. Wonderful. Thank you.
    I would like to ask yourself and Ms. McFadden if you could 
explain to me, as I said also in my testimony, that the housing 
stock in New York is different than it is in other parts of our 
country. Many of our residents live in attached housing, 
whether it be in row houses or townhouses, or whether it be in 
an apartment building. It is near impossible for the residents 
of those types of housing to be able to abide by the elevation 
standards that are required in order to find relief in their 
premiums for their insurance.
    Is HUD, is FEMA, is anybody working on factors that those 
folks can mitigate to protect their homes without elevating 
that will allow them to see the same relief in their flood 
insurance premiums as others who are elevating are seeing?
    Ms. McFadden. Yes, Congressman, I agree that this is a real 
problem, and we are working very closely with FEMA, as well as 
with the city of New York, to see what flexibility we can find. 
But it is a tough problem in that we want to be careful about 
not putting people back in harm's way, but also be sensitive 
about the fact that people want to return to their homes, and 
there is a shortage of housing here in the region.
    Mr. Byrne. We certainly recognize that. In fact, a program 
that you and Mr. Zarrilli pointed out, the Rapid Repair 
Program, is an example where we recognized that. We came into 
the city. We had our toolbox of ways that we dealt with 
transitional housing, and it just didn't work here. We had to 
come up with something innovative. We certainly pushed the 
edges of our authority to do so, and we are really proud of 
working with the city and the State that that was a success. We 
have to do something similar here with these issues.
    The important thing about our programs when they are 
related to that type of hazard mitigation program is they are 
locally-driven. New York is really a grouping of neighborhoods, 
and each neighborhood has got to get involved in what the right 
solution for them will be, and that is how our programs are 
designed, that the local community gets a say, the State gets a 
say, and then we try to find the solution together.
    Mr. Donovan. I understand that, aside from elevation, there 
are measures that a community can take to protect not just an 
individual home but a community as a whole that would, first of 
all, reduce the risk of flood in those homes, and second allow 
those folks to see a reduction in their insurance. I think what 
our residents need is some guidance on what are those measures 
a community could take, and we look forward to hearing from 
you, not today but in the future. I have written to the 
administrators of both of your agencies asking for some 
guidance on what our residents can do to mitigate when it is 
impossible to elevate their home.
    My time is running out. I just wanted to ask my friend Dan 
Zarrilli--Dan, I know there were some difficulties coordinating 
grants. I know a lot of our residents were misinformed or not 
informed particularly with taking out SBA loans and then later 
on finding out that they were ineligible for other relief 
because they had taken out a loan. When they asked can we pay 
the loan back and get the grant relief, they were told no, 
since you took the SBA loan. That was, I think, the fault of 
all of us for not informing people who were trying to do the 
right thing and be responsible, taking out loans to start the 
repair work, that if they hadn't taken that loan out they would 
have been eligible for money that they wouldn't have had to pay 
back.
    So I don't know if through your experience, in all the 
projects you have worked on, when you found that information 
being passed down from various Federal agencies makes it more 
difficult if information wasn't being passed down to you, if 
information was being passed down that was not coordinated with 
every agency that was involved, I just want to open that up to 
you.
    Mr. Zarrilli. Well, I think one thing that I was talking 
about the challenges, that those dollars that come, the CDBG 
dollars that come without the payback provisions were not 
authorized until 3 months after the storm. So the timing, I 
think, was the challenge, that people were out telling 
residents here are the different sources available to you. The 
other sources were not yet known, and so there was an 
information disconnect on how those programs could work 
together ultimately.
    So I think in an ideal world we would know what the full 
Federal response would be at that moment and we could advise 
accordingly.
    Mr. Donovan. Thank you.
    My time has expired. I now recognize the gentleman from New 
Jersey, Mr. Payne.
    Mr. Payne. OK. Thank you, Mr. Chairman.
    I am just kind-of piggybacking on what the Chairman's 
questions were. Mr. Byrne and Ms. McFadden, that process for 
individuals applying for assistance after a disaster is fairly 
complicated. It is really a paperwork nightmare, chock-full of 
different eligibility criteria and document requirements and 
often requires trips to various offices.
    What efforts are underway to simplify this process for 
disaster survivors after this experience with Superstorm Sandy?
    Mr. Byrne. We recognize that, first of all, all these 
programs are designed to try to help, and that is our guiding 
light as we go into it. Early on in the disaster we tried to 
house all the organizations in the same place. Certainly we 
worked with the city. The city set up some locations, and we 
set up what we called Disaster Recovery Centers, where we will 
bring everybody together to try to make the process easier.
    We do have, each of our agencies, responsibility to have 
internal controls, and to the extent that we can make those 
similar to make it easier, we are committed to doing so. One of 
the ways we do it, because one of the things that makes this a 
bit of a challenge is the privacy restrictions on people's 
personal information, we do have ways that, especially when it 
comes to working with non-profits, that we have what we call 
Routine Use Agreements, where our lawyers get together and they 
work out where we can share this information and that the 
people are OK with us sharing this information.
    But there is certainly more work we could do. We are 
committed to doing that. We recognize that speed to target, 
speed to assistance is one of the greatest impacts of having a 
faster recovery, and we are committed to do what it takes to do 
that.
    Mr. Payne. Yes, because you would think in a disaster such 
as this, flooding or a hurricane, that there is accessibility 
to some of the documentation that you are going to require was 
probably lost in the disaster. So it kind-of exacerbates the 
expediting of this help.
    Ms. McFadden.
    Ms. McFadden. At HUD, our program money goes to the States 
and local governments who set up their own programs. One of the 
challenges we hear is the amount of time it takes them to set 
up those programs. So we have invested in a toolkit that 
includes sample documents for them to set up, including 
applications for assistance for individuals. We also have been 
encouraging greater outreach from the beginning of the 
disaster. We certainly learned lessons in New Jersey about the 
importance of getting to particularly low- and moderate-income 
communities and people of limited English proficiency. So we 
are working more closely to ensure that those recommendations 
are made to grantees right at the front end.
    Mr. Payne. My next question kind-of piggybacks on that. 
With the funding going to the State and local governments, many 
have called into question New Jersey's ability to effectively 
carry out disaster recovery programs following Superstorm 
Sandy. In light of allegations that the Christie administration 
played politics with the disaster relief money and dragged 
their feet on distributing funds to those who needed it most, 
how does FEMA and HUD oversee administration of State and 
Federal disaster funds and ensure that the investments are not 
politically motivated? How can you help ensure that the funds 
are spent efficiently and go to where they are needed?
    Mr. Byrne. Representative Payne, all of our programs have 
rigid guidelines of criteria for eligibility and for what types 
of things they can be spent on. There has to be loss when it 
comes to some of the areas that are impacted. Probably the 
program that we have that has the most flexibility for the 
State and local governments is the Hazard Mitigation Program 
where a portion, 25 cents on the dollar, is put into a pool and 
the State can have a look State-wide as to what their major 
risks are. That is not to say that there aren't still 
requirements, that there aren't still things that have to be 
looked at, there aren't still criteria that we evaluate 
regularly and routinely to make sure that we are getting the 
best bang for the buck.
    Ms. McFadden. The design of the CDBG program puts the 
controls in the State's hands to design the program, and once 
that program is designed and set up, HUD is monitoring it very 
closely, as well as our Office of Inspector General, to get on 
the ground to make sure that those funds are being done. We 
meet with the State at least quarterly, either for a monitoring 
visit or for a technical assistance visit, and more frequently 
than that have conversations with them to check on updates. We 
also talk with community groups to get their input to see how 
things are going.
    Mr. Payne. I would hope that there could be a mechanism 
that determines, based on past experience and criteria, that 
the State is moving, that you see efforts for them moving 
forward, as opposed to not dragging their feet with these 
funds. You would know best whether they are trying to work in a 
timely manner or not, and then suggest to them that they move 
forward in a more expeditious manner. So hopefully that can be 
something that is incorporated into the milestones that they 
need to meet.
    With that, Chairman, I will yield back.
    Mr. Donovan. I thank the witnesses for their valuable 
testimony today. I thank you for sharing your expertise in the 
measures that we took before, during, and after Superstorm 
Sandy. I certainly appreciate your suggestions for what we 
should do in the future.
    This panel is dismissed. I will ask the clerk to arrange 
the table for the next panel. Thank you.
    [Pause.]
    Mr. Donovan. I would like to welcome our second panel to 
today's hearing and thank them for their participation.
    Mr. Vincent Ignizio serves as the chief executive officer 
of Catholic Charities of Staten Island, a position he has held 
since July 2015. Prior to joining Catholic Charities, Mr. 
Ignizio served as the minority leader of the New York City 
Council and as a New York State Assemblyman representing 
southern Staten Island.
    Welcome, Mr. Ignizio.
    Mr. Ignizio. Thank you, Chairman Donovan, esteemed Members 
of the subcommittee--oh, I'm sorry, pardon me. I am already 
rolling right into it.
    [Laughter.]
    Mr. Donovan. A very aggressive witness.
    [Laughter.]
    Mr. Donovan. Thank you.
    Mr. Brad Gair currently serves as the vice president of 
emergency management and enterprise resilience at NYU Langone 
Medical Center. He previously served as the founding director 
of the Mayor's Office of Housing and Recovery Operations and 
was the local recovery manager in the aftermath of Hurricane 
Sandy. He also served as deputy commissioner of the New York 
City Office of Emergency Management and as Federal recovery 
officer for the World Trade Center after 9/11. Mr. Gair is 
testifying today as a private subject-matter expert. He is not 
representing any agency.
    Ms. Donna Moravick serves as the executive director of 
Southside Hospital. She previously served as vice president of 
Cardiovascular Services for Northwell and director of the North 
Shore University Hospital and Long Island Jewish Medical Center 
Department of Cardiovascular and Thoracic Surgery.
    Ms. Kelly Higgs serves as the disaster recovery and 
resiliency coordinator for the New Jersey Voluntary 
Organizations Active in Disaster, a position she has held since 
October 2013. Prior to her current role, Ms. Higgs served for 
more than 20 years in non-profit management and consulting.
    The witnesses' full written testimony will appear in the 
record.
    The Chair now recognizes Mr. Ignizio for 5 minutes.

   STATEMENT OF VINCENT M. IGNIZIO, CHIEF EXECUTIVE OFFICER, 
  CATHOLIC CHARITIES OF STATEN ISLAND, STATEN ISLAND, NEW YORK

    Mr. Ignizio. All right. Thank you, Congressman, for the 
second time. I beg your indulgence. I am having a vision issue, 
so if you see me squint or look funny, I am having a problem 
with my contacts, so bear that in mind. I will paraphrase some 
of my testimony, and my testimony is submitted for the record, 
Mr. Chairman.
    I believe I have the unique position of being in the non-
profit sector after having been an elected official during 
Sandy over 3\1/2\ years ago. I can't believe it has been that 
long, and yet it feels like yesterday.
    I am grateful for the invitation to speak before you, Mr. 
Chairman, as I have before the U.S. Senate on recovery. As the 
representative for the South Shore, I first-hand saw what 
worked, saw what didn't work, and what needs improvement out 
here on Staten Island.
    During the evening of the storm, I found myself, as Staten 
Island quite often does, alone, because what happens is they 
shut the bridges down, and then Staten Island is on its own. 
The best efforts of the pre-deployed assets only worked so much 
depending on what was pre-deployed here. What we found is that 
there was not a sufficient amount of pre-deployed assets in the 
borough, and then when they shut the bridges down because of 
the winds, because of the rain, Staten Island is really on its 
own.
    This is not a criticism. It is just a fact of life of being 
on an island.
    Borough president and then-New York City Councilman and I 
found ourselves on Facebook trying to assist the police and 
fire department about where people were stuck in their homes. 
9-1-1 either was not working or was overburdened, causing an 
issue for the police department to try to find and assist 
people.
    The surge was what was the greatest impact here on Staten 
Island, as you know, Mr. Chairman, and a countless amount of 
homes were damaged. The morning after, eerily quiet. With much 
of the power on Staten Island out, the internet, phones and 
smartphones were inoperable. Even as an elected official, I 
couldn't communicate the plight of my constituents with City 
Hall, as there were no ways to communicate with them. I 
actually found a way at the end of Arden Avenue to finally 
reach a cell tower in your home State, Mr. Payne, of New 
Jersey. We actually picked up a signal from Keansburg. I wonder 
to today why our cell system was out and some duplicative 
systems that need to be in place to ensure that emergency 
communication would occur in those situations.
    Emergency shelters were soon swamped with donations and 
neighbors trying to help each other. It actually became a 
burden to the shelter system itself, and Catholic Charities 
really became the assistance in that. They agreed to set up a 
distribution center which would help provide assistance to the 
citizens in supplies, everything from water, which subsequently 
became sheetrock, which subsequently became helping rebuilding 
their homes. It is appropriate to note that New York City has a 
hazy remembrance of this scenario in that we have been working 
very hard with the city administration to try to receive some 
sort of reimbursement for the time that our facility was 
utilized with the massive amount of trucks and the 
infrastructure cost that we absorbed. We are working with them. 
We hope to have a solution in short order.
    Since Hurricane Sandy dealt a blow to our community, we 
have all been working together for a better Staten Island 
response, non-profit organizations overall. We at Catholic 
Charities became the distribution center to the South Shore to 
build a rapid repair center, as well as the case management 
center for people in need. Our board chairman, Jerry McEnerney, 
Monsignor Sullivan, who leads all of Catholic Charities for the 
New York Archdiocese, played a vital role in ensuring this 
partnership would serve the community needs first and foremost.
    We knew we needed to act expeditiously, and that is the 
real lesson that we learned. The first people on the ground, 
Mr. Chairman and Congressman, were the non-profit 
organizations. They go out--your churches, your local churches, 
your faith-based organizations, they go out and they help 
people first while Government has to work through the processes 
that are mandated by the system.
    What we are doing now is we have learned to plan, to pre-
deploy even in the communities in the non-profit organizations. 
Toward that end, we have partnered with Guyon Rescue, a local 
organization that helps communities and families after Sandy 
house a trailer on our campus, which would be stocked with 
needs, God forbid, of a future emergency that would allow for a 
quick and rapid deployment.
    Staten Island organizations as a whole have been working 
together to better understand the resources we each have and 
how we can use them more efficiently. Non-profit organizations 
like the Jewish Community Center, Project Hospitality, and 
local churches have been working on emergency preparedness 
planning individually in their own group, and then as a group, 
on how we can all work together.
    Working together with government on all levels will ensure 
that we learn the lessons from the past while making us ready 
for the future, God forbid a storm comes our way. With just 1 
year of this job under my belt, I can say that non-profit 
organizations are working very hard. Having this committee 
meeting on Staten Island is a strong statement, Mr. Chairman, 
and I commend you for doing so.
    So much has changed on Staten Island, but Staten Island has 
really come out stronger than it was before. We still have much 
to learn and hope your commitment and great staff can assist us 
in making sure that we are better prepared.
    In closing, I wanted to thank the great corporate partners 
that we had during Sandy to assist us as well, everything from 
Tyson Chicken to Walmart to faith-based organizations from 
across the country. There are too many to name, but they were 
here and they were assisting us when we needed it most. The 
massive allocation of Federal funds was and is appreciated. We 
have made and will continue to make Staten Island stronger and 
more resilient than it was prior to the storm. We only hope 
that the larger projects still in the planning stages will come 
sooner than later and, God forbid, a storm hits again.
    We at Catholic Charities of Staten Island fully intend on 
being part of the solution and welcome any questions and 
feedback you have for us.
    [The prepared statement of Mr. Ignizio follows:]
                Prepared Statement of Vincent M. Ignizio
                             July 11, 2016
    Chairman Donovan, esteemed Members of the Subcommittee on Emergency 
Preparedness, Response, and Communications, my name is Vincent Ignizio 
and I am currently the CEO of Catholic Charities of Staten Island. I 
have the unique position of being in the non-profit sector now having 
been an elected official when Sandy struck our shores over 3 years ago. 
I am grateful for the invitation to speak today as I previously have 
before the United States Senate on Sandy Recovery matters as well.
    As the NYC Council representative for the south shore of Staten 
Island, I saw first-hand what worked, what didn't work, and what needs 
to be improved god forbid another storm comes our way.
    During the evening of the storm Staten Island found itself as it 
quite often does--alone. Despite the best hopes of pre-deployed city 
and State assets, when a major storm is at its height our bridges 
close, the ferry stops running, and Staten Island is virtually on its 
own.
    Let me be clear, this is not a criticism, it is the fact of being 
an island when a serious storm comes our way. What made matters worse 
that infamous night is that the 9-1-1 system was either inoperable, 
congested, or both.
    Borough President Oddo, then a NYC Councilman like myself was using 
Facebook throughout the night to help police and fire officials find 
those in need and/or trapped in their homes. What made matters worse is 
that Hurricane Irene came and went without the damage predicted. This 
led people into a false sense of security that sadly cost some their 
lives.
    The surge is what was the greatest impact on Staten Island and with 
more than 2 dozen deaths and countless amounts of homes damaged, the 
morning after was eerily quiet.
    With much of the power out on Staten Island, cell towers, internet, 
phones, and smartphones were inoperable. As an elected official I could 
not communicate the plight of my constituents to City Hall in that we 
had no access to any communication devices that would work.
    Gasoline was difficult to come by in that most pumps utilize 
electricity to operate as well.
    I myself went out to the end of Arden Avenue to try to get a signal 
on my cell phone from NJ--which I was fortunately able to do. I ask to 
this day, why did the towers in Keansburg work and not ours?
    Emergency shelters were soon swamped with donations and neighbors 
trying to help each other. This actually became a burden to the shelter 
system and the city reached out to Catholic Charities to ease the 
burden. They agreed to set up a distribution center which would help 
provide assistance to citizens in need of supplies from water to sheet 
rock and everything in between.
    It is appropriate at this point to advise the committee that NYC 
has a hazy memory as of late when it comes to this point and we have 
been unable to secure any reimbursement funding for the time our 
buildings were off line due to the city's requested need. We as a local 
non-profit were happy to help and yet disappointed at the current 
administration which has refused to offset the costs we incurred and 
damage to our physical plant while assisting.
    Since Hurricane Sandy dealt its blow to the community we have all 
been working hard to strengthen Staten Island's response. Sadly the 
storm itself allowed us to look at what would be needed as institutions 
and individuals alike.
    We at Catholic Charities became the distribution center for the 
south shore, the build-it-back center, the rapid repair center, as well 
as the case-management site for those seeking assistance in our area. 
Our Board Chairman Gerard McEnerney and Monsignor Sullivan, who leads 
all of Catholic Charities in the New York Archdiocese, played the vital 
role in ensuring the partnership was one that served the community and 
its needs first and foremost. We knew we needed to act as expeditiously 
as possible as the need for assistance grew with every hour after the 
storm hit.
    We learned the vital and rapid role NPOs play in the community when 
governments are just beginning to ramp up responses or unable to 
address one's specific needs in short order.
    In fact we have learned that having a plan to pre-deploy supplies 
in case of emergencies is beneficial to both Government and the NPO 
alike in case of a future disaster.
    Towards that end we have partnered with Guyon Rescue a local 
organization that helped countless families after Sandy store a trailer 
on our campus that will be stocked with emergency supplies. This will 
allow for rapid deployment should the need arise.
    Staten Island organizations have been working together to better 
understand the resources we have and how we can use them more 
efficiently. NPOs like the Jewish Community Center, Project 
Hospitality, and local churches have been working on emergency 
preparedness and planning individually and as a group.
    Working together with Government on all levels will ensure we 
learned the lessons from the past while making us ready for the 
future--one that we hope will never come.
    With just 1 year on the job this coming week I can say that we in 
the NPO world recognize the need and vital role we play in helping our 
neighbors when emergencies strike. Having the committee on Staten 
Island is a strong statement and I want to thank you Mr. Chairman for 
your relentless efforts in making this hearing happen and ensuring we 
are prepared and receiving our fair share.
    So much has changed and yet Staten Island has come out of all this 
stronger than before. We still have much to learn and hope your 
committee and great staff can assist us in making sure we are in fact 
better prepared.
    In closing I want to thank all the great corporate partners that 
came to assist as well. From Tyson chicken to Walmart to faith-based 
organizations from across the country. There are too many to count and 
mention here today. Staten Island was fortunate to have such support 
and kindness from its neighbors from across this great nation.
    The massive allocation of Federal funds was/is appreciated as well. 
We have made and will continue to make Staten Island stronger and more 
resilient. We only hope the larger projects still in the planning 
stages come sooner than later and before we get hit again.
    We at Catholic Charities of Staten Island fully intend on being a 
part of the solution and welcome any feedback or questions that I have 
the ability to field.

    Mr. Donovan. Thank you, Mr. Ignizio.
    Mr. Gair.

            STATEMENT OF BRAD GAIR, PRIVATE CITIZEN

    Mr. Gair. Good morning, Mr. Chairman, Representative Payne. 
My name is Brad Gair. I am currently vice president of 
emergency management and enterprise resilience at NYU Langone 
Medical Center. After Hurricane Sandy, I was the director of 
Housing Recovery Operations in the Mayor's Office, and also 
coordinated the city's multi-billion-dollar FEMA recovery 
program. Previously I served as deputy commissioner with the 
New York City Office of Emergency Management and as a FEMA 
Federal coordinating officer, during which time I worked on 
numerous large-scale disasters, including serving as the 
Federal Recovery Officer in New York City after 9/11 and in 
Louisiana after Hurricane Katrina.
    I am grateful for this opportunity to address the 
subcommittee today. Based upon more than 2 decades of 
experience in the business of disaster recovery and resilience, 
I offer the following four points for your consideration.
    No. 1. We need a National dialog to agree upon recovery 
values. As citizens of a caring Nation, we have a natural 
inclination to want to help and assist our neighbors after the 
devastating losses that accompany large-scale disasters. 
Unfortunately, we have yet to agree at the National level upon 
how much we should do to aid disaster survivors. As a result, 
we have created a series of programs that, in the end, serve 
neither the taxpayers nor those families who may have lost 
everything. Every time a major disaster occurs in this country, 
the same unanswered questions plague recovery efforts: How much 
help is fair and reasonable? Should the taxpayers across the 
Nation share this burden? Who is responsible for getting 
families back into their homes? Why not require insurance? How 
much should we invest in making communities more disaster-
resilient, and are there areas where we should not build back 
at all? The answers to these questions and many similar ones 
depend upon whom you ask.
    FEMA's mantra is: ``We are not here to make you whole.'' 
Does that represent the collective wisdom of our Federal 
agencies and our Nation's lawmakers, or is it simply a 
rationale for inadequate programs that have filled a vacuum 
created by a lack of consensus, unclear guidance, and muddled 
authorities? Until we agree upon the basic parameters of post-
disaster assistance grounded in consideration of these types of 
issues, even the best-conceived programs would fail to meet the 
expectations of the Government, the disaster survivors, and the 
American people.
    No. 2. Existing recovery programs and resilience programs 
are poorly structured and badly implemented. The Federal 
Government often speaks of the sequence of delivery and 
disaster assistance as if there is a coherent plan behind it 
all when in reality it is a series of patchwork programs that, 
more than anything else, confuse, frustrate, and demoralize 
both those in need of aid and those trying to provide it. Our 
existing recovery programs do not work for the majority of 
families impacted by disasters, not individually and not 
collectively.
    The National Flood Insurance Program is broken, possibly 
beyond repair. FEMA's cap on assistance to families at barely 
$30,000 makes little economic sense. Asking families to take on 
new debt through Small Business Administration loans is always 
a hard sell to those who have already lost so much. Charitable 
organizations trying to fill the gap without sufficient data on 
the needs and very little coordination with Government agencies 
end up wasting millions of donated dollars, and the HUD CBDG 
program, when authorized, is expected to be the magic bullet, 
and instead ends up being just another self-inflicted wound for 
the Federal Government.
    From the Road Home program in post-Hurricane Katrina 
Louisiana, to Build-It-Back in post-Sandy New York City, HUD 
CBDG programs have generally been categorical failures in 
supporting timely and effective housing recovery. Once Congress 
authorizes the funds, the process for getting these funds from 
the Federal Treasury to those in need is unacceptably long, 
inexplicably convoluted, and inexcusably wasteful. It would be 
very easy to simply blame bumbling bureaucrats and greedy 
contractors, and no doubt we must all do better. But the root 
of the problem is that no State and no local government, 
regardless of its capability, can successfully create and set 
up in a few months what amounts to a multi-billion-dollar 
corporation with hundreds of employees and contractors, 
numerous store-front locations, a broad-based marketing 
campaign, and integrated customer service operations while tens 
of thousands of desperate customers must anxiously wait for 
help as their hope dwindles.
    HUD touts the flexibility of the CDBG-DR, which does indeed 
give communities considerable latitude in program design, but I 
would trade much of this flexibility for a pre-approved, off-
the-shelf program, complete with reasonable environmental 
waivers, a unified damage inspection process, unrestricted data 
sharing across the Government to minimize the paperwork burden 
on our customers, and a proven electronic case management 
system that could be quickly and efficiently operationalized. A 
properly-designed recovery program would be integrated with all 
other Federal programs to avoid the twin obstacles of excessive 
bureaucracy and unavoidable duplications of benefits that 
currently lead to extensive delays and universally bad results.
    No. 3. Post-disaster coordination across the Federal 
agencies is insufficient. In the 10-block stretch along the 
East River in Manhattan in the area known as Hospital Row, 
FEMA, HUD, and the VA have individually funded hundreds of 
millions of dollars of resilience improvements without making 
any attempt whatsoever to coordinate these critical 
infrastructure projects at NYU Langone Medical Center, Bellevue 
Hospital, the VA Hospital and the Rebuild By Design East Coast 
Resiliency Project, formerly known as the Big U.
    Similarly, right here on Staten Island, one Federal 
agency's funds are being used to buy out homes and convert the 
land to open space due to the extreme long-term flooding risk, 
while another Federal agency is designing a seawall that will 
ultimately provide substantially increased flood protection for 
this exact same property.
    I am not saying that anything has been done wrong in these 
cases or any other countless similar cases, and at NYU Langone 
we are extremely grateful for the Federal assistance. The point 
is that maybe with better coordination, we could have done even 
more right. As a result, the Federal Government continues to 
miss opportunities to enhance flood protection, maximize the 
use of tax dollars, and ensure that investments in resilience 
are properly integrated.
    The challenge is that no single Federal agency has the 
appropriate authority to directly coordinate these recovery 
programs in the way that FEMA does during the disaster response 
process. The second version of the National Disaster Recovery 
Framework was just issued last month and still does not include 
any formal mechanisms empowering FEMA or any other Federal 
agency to oversee and manage across the Federal recovery 
programs. Until this occurs, each agency will continue to work 
in isolation, and hundreds of millions of dollars in missed 
opportunities to leverage Federal funding will continue to 
accrue.
    Fourth and last. We need a comprehensive National 
resilience strategy. FEMA has 4 different hazard mitigation 
programs and has devoted billions of dollars to resilience 
post-Hurricane Sandy. HUD does encourage resilience in its CDBG 
programs by State and local governments, and separately 
dedicated $1 billion to the Rebuild By Design resilience 
competition. The Federal Transit Administration awarded $3 
billion of resilience grants to local and State governments, 
and Army Corps of Engineers received authorization for $4 
billion of Hurricane Sandy-related projects.
    While this commitment to resilience is commendable, each 
agency is left to establish its own ideas of what resilience 
means and how best to achieve it. As a result, there is no 
coherent overarching National resilience strategy in place to 
guide our investments.
    In the months after Hurricane Sandy, New York City devoted 
significant time and resources to devising the Special 
Initiative for Rebuilding and Resiliency to guide recovery 
based upon locally-derived resilience values. In a completely 
separate initiative at the Federal level, 23 agencies 
comprising the Hurricane Sandy Rebuilding Task Force developed 
a Hurricane Sandy Rebuilding Strategy, including 69 
recommendations, many of which were focused on resilience but 
few of which have been implemented. These initiatives are a 
good start, but a few months of hard work in the immediate 
aftermath of a single major hurricane should not be expected to 
set long-term National policy.
    We need the Federal Government, in cooperation with State, 
Tribal, and local governments, and the private sector, to 
develop a comprehensive National resilience strategy, 
establishing clear and measurable resilience objectives, and 
taking into account the latest scientific evidence, the values 
that communities hold dear, and everything in between. 
Furthermore, this Federally-driven resilience strategy must 
include an implementation plan and be tied directly to Federal 
funding assistance, or else it will be summarily ignored.
    We are all here today for the exact same reason that many 
similar Congressional committees and subcommittees have been 
convened in the aftermath of virtually every major disaster 
over the past several decades: The system is broken, everyone 
is mad, and billions of dollars continue to be wasted. The 
Post-Hurricane Katrina Reform Act reformed next to nothing, and 
the Hurricane Sandy Improvement Act improved far too little. 
Now let's try something different. Let's start over, decide who 
and how much we want to help, establish a comprehensive policy 
for disaster resilience and recovery, devise an implementation 
strategy, build an integrated set of programs that get the job 
done, and empower our hard-working public servants to lead 
genuine, sustainable, cost-effective efforts that restore 
communities and support families in their time of need.
    Thank you very much, and I would be happy to answer any 
questions.
    [The prepared statement of Mr. Gair follows:]
                    Prepared Statement of Brad Gair
                             July 11, 2016
    Good morning. My name is Brad Gair. I am currently vice-president 
of emergency management & enterprise resilience at NYU Langone Medical 
Center. After Hurricane Sandy, I was director of housing recovery 
operations in the Mayor's Office and also coordinated the city's multi-
billion dollar FEMA recovery program. Previously, I have served as 
deputy commissioner with the New York City Office of Emergency 
Management and as a FEMA Federal coordinating officer, during which 
time I worked on numerous large-scale disasters, including serving as 
Federal recovery officer in New York City after 9/11 and in Louisiana 
after Hurricane Katrina.
    I am grateful for this opportunity to address the subcommittee 
today. Based upon more than 2 decades of experience in the business of 
disaster recovery and resilience, I offer the following 4 points for 
your consideration:
       we need a national dialogue to agree upon recovery values.
    As citizens of a caring Nation, we have a natural inclination to 
want to assist our neighbors after the devastating losses that 
accompany large-scale disasters. Unfortunately, we have yet to agree at 
the National level upon how much we should do to aid disaster 
survivors. As a result, we have created a set of programs that in the 
end serve neither the taxpayers nor those families who may have lost 
everything.
    Every time a major disaster occurs in this country, the same 
unanswered questions plague recovery efforts. ``How much help is fair 
and reasonable?'' ``Should taxpayers across the Nation share this 
burden?'' ``Who is responsible for getting families back into their 
homes?'' ``Why not require insurance?'' ``How much should we invest in 
making communities more disaster-resilient?'' ``Are there areas where 
we should not build back at all?"
    The answer to these questions and many similar ones depends upon 
whom you ask. FEMA's mantra is ``We are not here to make you whole.'' 
Does that represent the collective wisdom of our Federal agencies and 
our Nation's lawmakers, or is it simply a rationale for inadequate 
programs that have filled the vacuum created by a lack of consensus, 
unclear guidance, and muddled authorities?
    Until we agree upon the basic parameters of post-disaster 
assistance grounded in full consideration of these types of issues, 
even the best-conceived programs would fail to meet the expectations of 
Government, the disaster survivors, and the American people.
  existing recovery and resilience programs are poorly structured and 
                           badly implemented.
    The Federal Government often speaks of the sequence of delivery in 
disaster assistance as if there is a coherent plan behind it all, when 
in reality it is a series of patchwork programs that more than anything 
else confuse, frustrate, and demoralize both those in need of aid and 
those trying to provide it.
    Our existing recovery programs do not work for the majority of 
families impacted by disasters, not individually and not collectively. 
The National Flood Insurance Program is broken, possibly beyond repair; 
FEMA's cap on assistance to families at barely $30,000 makes little 
economic sense; asking families to take on new debt through Small 
Business Administration loans is always a hard sell to those who have 
already lost so much; charitable organizations trying to fill gaps 
without sufficient data on the needs and little coordination with 
Government agencies end up wasting millions of donated dollars; and the 
HUD CDBG-DR program, when authorized, is expected to be the magic 
bullet and instead just ends up being another self-inflicted wound for 
the Federal Government.
    From the Road Home program in post-Hurricane Katrina Louisiana to 
Build-it-Back in post-Hurricane Sandy New York City, HUD CDBG-DR 
programs have generally been categorical failures in supporting timely 
and effective housing recovery. Once Congress authorizes the funds, the 
process for getting funds from the Federal treasury to those in need is 
unacceptably long, inexplicably convoluted, and inexcusably wasteful. 
It would be easy to simply blame bumbling bureaucrats and greedy 
contractors--no doubt we must all do better--but the root of the 
problem is that no local or State government, regardless of its 
capability, can successfully create and set up in a few months what 
amounts to a multi-billion dollar corporation with hundreds of 
employees and contractors, numerous store-front locations, a broad-
based marketing campaign, and integrated customer service operations 
while tens of thousands of desperate customers must wait anxiously for 
help as hope dwindles.
    HUD touts the flexibility of CDBG-DR, which does indeed give 
communities considerable latitude in program design, but I would trade 
much of this flexibility for a pre-approved, off-the-shelf program, 
complete with reasonable environmental waivers, a unified damage 
inspection process, unrestricted data sharing across Government to 
minimize the paperwork burden on our customers, and a proven electronic 
case management system that could be quickly and efficiently 
operationalized. A properly-designed recovery program would be 
integrated with all other Federal programs to avoid the twin obstacles 
of excessive bureaucracy and unavoidable duplications of benefits that 
currently lead to extensive delays and universally bad results.
post-disaster coordination across the federal agencies is insufficient.
    In the 10-block stretch along the East River in Manhattan in the 
area known as Hospital Row, FEMA, HUD, and VA have individually funded 
hundreds of millions of dollars of resilience improvements without 
making any attempt whatsoever to coordinate these critical 
infrastructure projects at NYU Langone Medical Center, Bellevue 
Hospital, the VA Hospital, and the Rebuild by Design East Side Coastal 
Resiliency Project (formerly known as the Big U).
    Similarly, right here on Staten Island, one Federal agency's funds 
are being used to buy out homes and convert the land to open space due 
to the extreme long-term flooding risk, while another Federal agency is 
designing a seawall that will ultimately provide substantially 
increased flood protection for this exact same property.
    I am not saying that anything has been done wrong in these or any 
other countless similar cases--and at NYU Langone, we are extremely 
thankful for the Federal assistance--the point is that maybe with 
better coordination, we could have done even more right. As a result, 
the Federal Government continues to miss opportunities to enhance flood 
protection, maximize the use of tax dollars and ensure that investments 
in resilience are properly integrated.
    The challenge is that no single Federal agency has appropriate 
authority to directly coordinate these recovery programs in the way 
that FEMA does during disaster response. The second version of National 
Disaster Recovery Framework was just issued last month and still does 
not include any formal mechanisms empowering FEMA or any other agency 
to oversee and manage across the Federal recovery programs. Until this 
occurs, each agency will continue to work in isolation, and hundreds of 
millions of dollars in missed opportunities to leverage Federal funding 
will continue to accrue.
          we need comprehensive national resilience strategy.
    FEMA has 4 different hazard mitigation programs and has devoted 
billions of dollars to resilience post-Hurricane Sandy. HUD encourages 
resilience in its CDBG-DR programs by State and local governments, and 
separately dedicated $1 billion to the Rebuild by Design resilience 
competition. The Federal Transit Administration awarded $3 billion of 
resilience grants to local and State governments after Hurricane Sandy, 
and U.S. Army Corps of Engineers received authorization for $4 billion 
of Hurricane Sandy-related resilience projects.
    While this commitment to resilience is commendable, each agency is 
left to establish its own ideas of what resilience means and how best 
to achieve it. As a result, there is no coherent overarching National 
resilience strategy in place to guide our investments.
    In the months after Hurricane Sandy, the city of New York devoted 
significant time and resources to devising the Special Initiative for 
Rebuilding & Resiliency (SIRR) report to guide recovery based upon 
locally-derived resilience values. In a completely separate initiative 
at the Federal level, 23 agencies comprising the Hurricane Sandy 
Rebuilding Task Force developed a Hurricane Sandy Rebuilding Strategy, 
including 69 recommendations, many of which are focused on resilience 
but few of which have been formally implemented. These initiatives are 
a good start, but a few months of hard work in the immediate aftermath 
of a single major hurricane cannot be expected to set long-term 
National policy.
    We need the Federal Government, in cooperation with State, Tribal, 
and local governments and the private sector to develop a comprehensive 
National resilience strategy, establishing clear and measurable 
resilience objectives, and taking into account the latest scientific 
evidence, the values that communities hold dear and everything in 
between. Furthermore, this Federally-driven resilience strategy must 
include an implementation plan and be tied directly to all Federal 
funding assistance--or else it will be summarily ignored.
    We are all here today for the exact same reason that many similar 
Congressional committees and subcommittees have been convened in the 
aftermath of virtually every major disaster over the past several 
decades--the system is broken, everyone is mad, and billions of dollars 
continue to be wasted. The Post-Katrina Reform Act reformed next to 
nothing; the Hurricane Sandy Recovery Improvement Act improved far too 
little. Now let's try something different. Let's start over, decide who 
and how much we want to help, establish a comprehensive policy for 
disaster resilience and recovery, devise an implementation strategy, 
build an integrated set of programs that get the job done, and empower 
our public servants to lead genuine, sustainable, cost-effective 
efforts that restore communities and support families in times of need.
    Thank you very much, and I would be happy to answer any questions 
that you may have.

    Mr. Donovan. Thank you, Mr. Gair.
    The Chair recognizes Ms. Moravick for 5 minutes.

  STATEMENT OF DONNA MORAVICK, EXECUTIVE DIRECTOR, SOUTHSIDE 
                 HOSPITAL, BAY SHORE, NEW YORK

    Ms. Moravick. Hi. I want to thank you both for allowing me 
to be here today.
    Southside Hospital is a 341-bed tertiary facility on the 
South Shore of Long Island in western Suffolk. We are a 
relatively new tertiary facility. We provide cardiac surgery 
care, cardiac care. We are a level-2 ACS, the American College 
of Surgeons, trauma center.
    On October 29, as we all know, 2012, we were really 
securing our borders and our entire campus for Hurricane Sandy. 
But we didn't start on the 29. We started 3 days earlier.
    I am actually a nurse and a nurse practitioner, and I 
believe in primary prevention as the treatment of choice, so we 
went into gear. We rallied the staff. We told them, bring your 
clothes, you are staying here for a good 2 to 3 days, and we 
are not leaving, even though they too may have had homes that 
would be destroyed during the hurricane. We went into action. 
We secured our core business. We have low-lying electric gear. 
We have our switch gear, and our generators are on the ground 
floor. We had purchased doors which I call the dam doors, but 
they are doors that dam the water out of that area. I am very 
visual, I have to see everything. So during the hurricane, we 
had administration there 24/7, all surgeons in-house, all 
cardiac surgeons, trauma, emergency room staff, and we were 
prepared for anything. We knew that if any other hospital in 
the community went down, we would have to be open.
    Our emergency room is there for our patients. We serve a 
very diverse community, which is really extremely important, 
and we are about $900 million of economic impact to our 
community.
    So our doors were open, and we were not shutting them at 
any cost. We identified those high-acuity patients that were 
requiring intubation or being on a respirator, and we put them 
in ambulances and transported them to higher ground, a tertiary 
facility in our health system. We had constant calls every 4 
hours, every 2 hours at times during the height of the storm. 
But as an executive director of a hospital, I never thought I 
would have to know high tide and moon phase, which hit 
simultaneously on the South Shore of Long Island.
    We are within 1,000 feet of tributaries that empty into the 
Great South Bay, and it was very scary seeing the water rise up 
to the doors of the hospital, sandbags. We really had to put a 
lot of people outside during this event to be sure that we had 
pumps going and our generators were working.
    Power was lost in the community, and what people do not 
recognize is the hospital is a safe haven for everyone. We had 
those worried well older patients, moms with their babies who 
had no light who would come into the hospital. We had a bar of 
oxygen across the emergency room with people breathing in our 
emergency room because they could and they needed to.
    So it was really a difficult time. The roads were shut down 
at one point in time. But I believe we persevered. We were 
prepared. We were ready to rumble. Whatever we could mitigate, 
we did at that time. We were backing up other institutions who 
were flooded and needed help. We were available for any other 
institution. We received calls from the Town of Islip, and we 
worked collaboratively with them.
    But I do believe that hospitals are an integral part of our 
community, and we are there in times of need. Patients who are 
well, patients who are sick, we are the place to go. Our 
emergency room was jam-packed with people who just were scared 
and didn't want to be home in their homes.
    So again, I think preparedness for hospitals is key, and we 
are the place where people will come during catastrophic 
events.
    Thank you for letting me speak.
    [The prepared statement of Ms. Moravick follows:]
                  Prepared Statement of Donna Moravick
                             July 11, 2016
    Southside Hospital (SSH) is a 341-bed tertiary hospital, located in 
south shore of western Suffolk County in Bay Shore, NY, and has been 
serving over 1.4 million residents. Southside Hospital has over 2,500 
employees and has an economic impact of approximately $900 million 
(Health Association of New York State). Southside Hospital is 
regionally recognized for its specialized services, including the 
American College Surgeons first verified trauma program in Long Island, 
cardiac surgery, neuroscience, and obstetrics & gynecology. In 
addition, SSH has a broad array of hospital-based ambulatory services. 
Moreover, Southside Hospital services a diverse community and is the 
safe haven for many, seeing over 71,000 emergency visits and having 
approximately 21,000 discharges per year.
    Southside sits within 1,000 feet of 3 major tributaries that flow 
into the Great South Bay. Southside's proximity makes is extremely 
vulnerable to storms, tides, and heavy rainfall. On October, 29 2012, 
Southside Hospital faced one of the worst storms of the century called 
Superstorm Sandy, which produced an even higher level of challenge 
given its landfall during a high tide cycle and corresponding full 
moon.
    The hospital immediately acted to protect its core hospital 
infrastructure assets including electrical switchgear, its generators, 
as well as telephone and IT rooms. On the eve of the storm, 
extraordinary efforts and costs were incurred to mitigate the high risk 
of this storm. At a great expense, the hospital implemented protective 
measures such as bringing in pumpers and installing storm doors to dam 
the water and protect the electrical gear. Fortunately, water levels 
rose but halted before they breached these protective measures. As a 
result, Southside was one of the only health care facilities in the 
Southwestern portion of Suffolk County that remained opened and 
continued to provide care to our patients and the community we serve.
    At all times, hospital staff performed heroically and was able to 
treat patients during and after the storm. Critical patients were 
identified and transferred to one of the other tertiary hospitals in 
the Northwell Health system. The hospital also became a safe haven for 
those who needed shelter, especially those dependent on electrically-
powered devices in their homes.
    Fortunately, through significant efforts, the hospital was able to 
weather the storm successfully despite record water levels. If the 
protective measures were breached, not only would Southside's main 
infrastructure be impacted long-term but its patient and the 
communities we serve would have been compromised.
    Subsequent to the storm, the hospital has taken many actions 
including infrastructure improvements and continual emergency 
management training to lessen the impact of future storms. 
Nevertheless, a continued investment in storm mitigation infrastructure 
protections is still required.
    Post-storm, Southside, at its own expense, began to invest in 
necessary remediation infrastructure protections. During the past 4 
years, the hospital has spent approximately $6 million dollars in these 
capital improvements.
    With the recently-awarded FEMA grant funds, Southside is now able 
to elevate critical equipment to secure elevated locations. 
Additionally, with the help of the grant, the hospital will be 
hardening the building envelope including windows, roofing, and other 
points of access.
    Finally, in addition to assessing new preventive infrastructure 
improvements, we continue to train all staff on emergency management 
and regularly explore best practices to protect against a future storm 
event. We thank you for allowing us to tell our story.

    Mr. Donovan. Thank you.
    The Chair recognizes Ms. Higgs for 5 minutes.

 STATEMENT OF KELLY D. HIGGS, DISASTER RECOVERY AND RESILIENCY 
   COORDINATOR, NEW JERSEY VOLUNTARY ORGANIZATIONS ACTIVE IN 
                            DISASTER

    Ms. Higgs. Thank you very much, Chairman Donovan and 
Ranking Member Payne, for convening this hearing on the 
importance of preparedness and resiliency and inviting me to 
testify on this critical topic.
    New Jersey Voluntary Organizations Active in Disaster, or 
NJVOAD's mission is to bring together New Jersey organizations 
in disaster response and recovery in order to offer more 
effective services to people and communities affected by 
disaster. Our success derives from strong relationships built 
on the foundation of the four C's, which are cooperation, 
communication, coordination, and collaboration.
    It is my belief that these same foundational building 
blocks have contributed to many successful partnerships, 
projects, and outcomes in the aftermath of Sandy. Conversely, 
when these key ingredients were not present, programs struggled 
and/or failed.
    There have been many lessons learned throughout Sandy 
recovery, but my testimony today will focus on 4 areas.
    First, the need to build partnerships and relationships at 
the local, county, and regional level before disaster strikes.
    Second, the need for early education and outreach to 
impacted households.
    Third, the importance of building partnerships with the 
philanthropic community and advocating for funding allocation 
decisions which sustain true long-term recovery efforts.
    Fourth, the need for coordination and continuity in the 
development and implementation of State-managed programs 
utilizing community development and social service block grant 
funds.
    With the support of the Corporation for National Community 
Service, grants utilized VISTAs, or Volunteers in Service to 
America, to build capacity. NJVOAD has been able to establish a 
VOAD presence in every county in New Jersey, and this is pretty 
remarkable because there were only 6 in place before Sandy 
struck. We saw the benefit of this in Bergen County, where the 
VOAD had a strong network of area non-profits and a solid 
relationship with the Office of Emergency Management prior to 
Sandy. As a result, they were able to quickly mobilize non-
profit resources for response and recovery efforts in impacted 
communities.
    Sadly, Hudson County, Essex County, and Union, and many of 
the most impacted counties to the south of Bergen, did not have 
a VOAD in place prior to Sandy, and as a result they needed a 
tremendous amount of support in identifying partners and 
resources, which delayed the speed and efficiency of service 
delivery to impacted individuals.
    NJVOAD worked in these and all 21 counties throughout the 
State to identify non-profit and governmental partners to join 
the VOAD to coordinate outreach events, to identify leadership 
to ensure regular meetings and training, and to organize 
individual structures that meet the unique needs of each of 
these communities.
    Other States are looking at NJVOAD's program as a model for 
resiliency, and we are working with our Corporation for 
National Community Service and our FEMA Region 2 partners to 
replicate these efforts through a regional pilot program.
    Almost 4 years post-Sandy, the need for recovery support 
far outweighs the remaining non-profit resources. The remaining 
cases consist primarily of low-income households with limited 
means for recovery, or moderate-income households that 
encountered several challenges navigating the complicated 
recovery road. Many of these households began recovery work 
before documenting the damage, and they have not been able to 
provide sufficient proof of that damage to receive the funds 
they should be entitled to through the National Flood Insurance 
Program. Others signed contracts they could not afford or hired 
disreputable contractors to complete recovery work.
    NJVOAD is developing educational resources to be utilized 
in future disasters so that impacted homeowners can make 
informed decisions before beginning their recovery.
    NJVOAD is also working closely with the philanthropic 
community to identify collaborative solutions which will 
provide for a more effective and sustainable funding stream for 
future disasters. Education extending to our Government 
partners and the public is critical to ensure better 
understanding of the need for funding to sustain recovery 
efforts long term.
    The majority of money is donated in the days and weeks 
following a major disaster, with the expectation and sometimes 
the mandate that these funds get out immediately, but that is 
not when donated dollars are most needed. NJVOAD hopes to 
establish a State-wide advisory group with representatives from 
the philanthropic, Government, and non-profit communities to 
provide guidance and expertise specific to the disaster at 
hand.
    The struggle to navigate the State recovery programs 
remains one of the biggest challenges faced by New Jersey Sandy 
survivors and non-profit organizations. For instance, RREM, 
which is New Jersey's Rebuild program, was developed without 
consideration of funding for rental assistance, which can and 
should be covered by block grants. Millions of non-profit 
donated dollars were expended on rental assistance so that 
Sandy survivors could maintain mortgages on uninhabitable 
homes. Attempts to advocate with State and Federal agencies to 
address this and other deficiencies were not productive, as 
each held the other accountable for roadblocks to progress.
    NJVOAD has forged relationships with the New Jersey 
Division of Consumer Affairs, and we have seen small 
concessions, but much improvement is needed in how these 
programs are designed and integrated into the overall disaster 
recovery framework. A stronger citizen action plan should be 
mandated which requires input and involvement by disaster 
survivors and recovery entities during the formation of any 
proposed disaster recovery action plan. Additionally, better 
integration and staffing of the joint field offices to include 
State decision makers responsible for the development and 
implementation of recovery programs could go a long way in 
future coordination and integration of Governmental programs.
    NJVOAD is committed to working with our public- and 
private-sector partners to be part of the solution in 
implementing lessons learned from Sandy and preparing our 
communities to weather whatever storms might lie ahead.
    Thank you again for the opportunity to testify, and I look 
forward to answering any questions.
    [The prepared statement of Ms. Higgs follows:]
                  Prepared Statement of Kelly D. Higgs
                             July 11, 2016
    My name is Kelly Higgs, and I am honored to serve as the Disaster 
Recovery and Resiliency Coordinator for New Jersey Voluntary 
Organizations Active in Disaster (NJVOAD). I was hired post-Sandy to 
provide support for long-term recovery in impacted communities 
throughout NJ, while also building resiliency and preparedness efforts 
in all 21 counties throughout the State. I am thrilled that the House 
Committee of Homeland Security's Subcommittee on Emergency 
Preparedness, Response, and Communications has convened a hearing 
around the importance of preparedness and resiliency, and I am honored 
to be invited to testify on this critical topic.
    NJVOAD's mission is to bring together New Jersey organizations 
active in disaster assistance, and to foster cooperation and 
coordination in preparedness, response, and recovery in order to offer 
more effective services to people and communities affected by disaster. 
Our success is built upon strong relationships with non-profit, and 
Government partners which are built on the foundation of the ``Four 
C's'': Cooperation, communication, coordination, and collaboration. It 
is my belief and testimony that these same foundational building blocks 
have contributed to many successful partnerships, projects, and 
outcomes in the aftermath of Sandy. Conversely, when these key 
ingredients were not present, programs struggled and or failed.
                            lessons learned
    There have been many lessons learned throughout Sandy recovery, but 
NJVOAD has prioritized these five:
    1. The need to build partnerships and relationships at the local, 
        county, and regional level BEFORE disaster strikes;
    2. The importance of a coordinated effort to broadcast and organize 
        the needs for donated goods and volunteer support;
    3. The need for early education and outreach to impacted 
        households;
    4. The importance of building partnerships with the philanthropic 
        community and advocating for funding allocation decisions which 
        sustain true long-term recovery efforts;
    5. The need for coordination and continuity in the development and 
        implementation of State-managed programs utilizing Community 
        Development and Social Services Block Grant funds.
    One of the very early lessons learned was the need to build 
partnerships and relationships at the local, county, and regional level 
BEFORE disaster strikes. NJVOAD saw the benefits of this in areas like 
Bergen County, where the Bergen VOAD had a strong membership of area 
non-profits and a solid relationship with the Office of Emergency 
Management (OEM) prior to Sandy. They were able to quickly mobilize 
non-profit resources for response and recovery efforts in Moonachie, 
Little Ferry, and other impacted communities. Sadly, Hudson, Essex, and 
Union Counties, 3 of the 9 most impacted counties just to the south of 
Bergen, did not have a VOAD in place prior to Sandy. These and other 
communities without a VOAD needed a tremendous amount of support in 
identifying partners, finding resources, building relationships and 
gaining trust, which delayed the speed and efficiency of resource and 
service delivery to impacted individuals.
    Another significant challenge New Jersey encountered was the lack 
of a coordinated effort to broadcast and organize the needs for donated 
goods and volunteer support. So many organizations found themselves 
overwhelmed with clothing or canned goods that were dropped on their 
doorstep immediately following Sandy's arrival. Time and money was 
spent sorting, storing, distributing, and disposing of these 
unsolicited donations while communities lacked many other items which 
were needed to support response and recovery efforts, such as 
construction materials, protective masks, etc.
    When Sandy struck, there was no centralized platform for volunteers 
to receive direction about how to help, or for communities and groups 
in need of volunteer labor to identify and coordinate volunteer 
efforts. Many volunteers appeared spontaneously in communities which 
were not equipped to deploy them, while other communities were longing 
for additional support but did not have the means to reach people to 
organize efforts. More than 18,000 calls and texts were received on the 
cell phone of the executive director of the NJ Governor's Office of 
Volunteerism in the days immediately following the storm, but there was 
no established mechanism in place to connect this desire to help with 
the needs in affected communities.
    Almost 4 years post-Sandy, the need for support far outweighs the 
non-profit resources which remain in place to meet that need. This is 
not due to lack of desire on the part of non-profits, but to lack of 
funding. There are a limited number of Disaster Case Managers and non-
profit builders who are continuing to work with some of the most 
challenging Sandy-recovery cases. These cases consist primarily of 
people who fall into two categories: Low-income households with limited 
means for recovery and moderate-income households that encountered 
several challenges navigating the complicated road to recovery. Many of 
these households began recovery work in their home before documenting 
the damage, and they have not been able to provide sufficient proof of 
damage to receive the funds they should be entitled to receive through 
the National Flood Insurance Program (NFIP). Others signed contracts 
they could not afford or hired disreputable contractors to complete 
recovery work. There are many lessons we have learned from working 
alongside these individuals, but the two primary lessons are: The need 
for early education and outreach to impacted households and the 
importance of building partnerships with the philanthropic community 
and advocating for funding allocation decisions which sustain true 
long-term recovery efforts in the wake of a major disaster such as 
Sandy.
    One of the biggest challenges faced by NJ Sandy survivors and non-
profit organizations supporting recovery work has been the lack of 
coordination and continuity in the development and implementation of 
State-managed programs utilizing Community Development Block Grant--
Disaster Recovery (CDBG-DR) and Social Services Block Grant (SSBG) 
funds. For instance, NJ's rebuild program, Rehabilitation, 
Reconstruction, Elevation, and Mitigation Program (RREM) was developed 
without consideration of funding for rental assistance. Rental 
assistance has been provided through other Federal and State programs, 
but the coordination and timing of these programs left significant 
gaps:
  <bullet> FEMA's Individual and Households (IHP) program provided up 
        to 18 months of rental assistance (or until the maximum grant 
        amount was awarded), which carried most households through the 
        late winter/early spring of 2014.
  <bullet> NJ's Sandy Homeowner/Renter Assistance Program (SHRAP) 
        launched in November 2013 and covered a maximum of 6 months of 
        rental assistance (or coverage for other necessities such as 
        utility payments, furniture, or household appliances) to a 
        maximum of $15,000. This money was first-come, first-served, so 
        many individuals receiving IHP rental assistance applied for 
        SHRAP concurrently and utilized SHRAP funds to cover other 
        expenses to avoid duplication of benefits. Most people had 
        exhausted their SHRAP award or had received the maximum 6 
        months of service by summer--early fall of 2014.
  <bullet> There was no Governmental program in place to cover rental 
        assistance until the Tenant-Based Rental Assistance (TBRA) 
        program was introduced in March 2015 with first rental payments 
        being disbursed in May 2015. This 12-month program was extended 
        to cover a maximum of 24 months.
    Non-profit funding is supposed to be the dollar of last resort to 
address unmet needs. However, the above time line left many displaced 
homeowners turning to the non-profit community to cover their rent for 
periods of 6-9 months. Millions of non-profit donated dollars were 
expended on rental assistance, so that Sandy survivors could maintain 
mortgages on their uninhabitable homes. Attempts to advocate with State 
and Federal agencies to address this and other deficiencies were not 
productive as each held the other accountable for any roadblocks to 
progress.
                 resolution efforts and recommendations
    NJVOAD members have worked closely with existing partners such as 
the Federal Emergency Management Agency (FEMA), the New Jersey Office 
of Emergency Management (NJOEM), the NJ Department of Human Services 
(NJDHS), and the Governor's Office of Volunteerism to create and 
implement collaborative solutions to these lessons learned. We have 
also developed new partnerships with the Corporation for National and 
Community Service (CNCS), the Robert Wood Johnson Foundation, the 
Council of NJ Grantmakers, and many others to build a network which 
strengthens the preparedness and resiliency of NJ communities.
    NJVOAD has been very fortunate to receive grants to support 
recovery and resiliency throughout the State. We were able to expand 
the scope of this work through a CNCS grant to utilize VISTA 
(Volunteers in Service to America) members to provide capacity-building 
support for long-term recovery in Sandy-affected communities while 
building and strengthening preparedness and resilience efforts in all 
21 counties. Over the course of 2 years, NJVOAD has been able to 
leverage these resources to support on-going recovery work and 
establish a VOAD presence in every county in NJ. NJVOAD pioneered the 
utilization of the VISTA program for capacity-building in the areas of 
disaster recovery and community resiliency and preparedness efforts. 
For example, our team of VISTA members worked in Union County to 
provide community outreach events for long-term recovery efforts and 
identify non-profit and Governmental partners to be part of the VOAD. 
VISTA efforts supported long-term recovery efforts in Hudson County, 
then planned events to transition those relationships into an active 
VOAD that meets regularly for training and planning purposes. Essex 
County had a strong showing for the launch of its VOAD group, and has a 
core team in place which is identifying leadership and organizing a 
structure that will meet the unique needs of this diverse county. This 
work has been repeated in all 21 counties throughout NJ where the VOAD 
movement has been developed or strengthened to ensure greater community 
preparedness and resiliency. Because of the great work of the two VISTA 
teams we have had in place, NJVOAD received National recognition and 
was awarded the 2016 State VOAD of the Year Award. Other State VOADs 
and relief organizations are looking at this as a model to support 
disaster response and recovery efforts in the future, and NJVOAD is in 
discussion with our CNCS and FEMA Region II partners about developing a 
regional pilot program for New York, New Jersey, Puerto Rico, and the 
Virgin Islands.
    NJVOAD partnered with NJOEM and the Governor's Office of 
Volunteerism to develop HELPNJNOW.ORG, a web-based solution to address 
the secondary disasters which result when there is no system to manage 
unaffiliated volunteers and unsolicited donations. When New Jersey is 
not responding to a declared disaster (the ``blue sky'' mode), the 
focus of this site is on personal preparedness with information and 
links for people to prepare themselves and their families for potential 
threats. The site also provides education about the best ways to help 
when a disaster strikes. One primary focus is to encourage people to 
register and train as a disaster volunteer before a disaster strikes, 
as trained volunteers are critical to successful disaster relief 
efforts. Education about donated goods is also a critical focus, as 
many people don't realize the burden of shipping, sorting, storing, and 
distributing items.
    When a large-scale disaster impacts New Jersey, the site will 
operate in ``gray sky'' mode with links to 4 key resources:
  <bullet> Monetary Donations.--Cash is the best way to help in any 
        disaster, as organizations can purchase what is needed locally 
        and help rebuild the economy in impacted communities. NJVOAD 
        utilizes GuideStar and Charity Navigator to vet the 
        organizations listed on HELPNJNOW.ORG to minimize potential for 
        fraud or mismanagement.
  <bullet> Material Goods.--Information about items needed will be 
        posted, as well as a portal for people to offer donated goods 
        which will be shared with organizations serving impacted 
        communities.
  <bullet> Volunteers.--The site becomes a virtual volunteer reception 
        center where people who want to help can complete an on-line 
        application and skills inventory and sign up for volunteer 
        opportunities.
  <bullet> Information/Assistance.--For those in need of help, links 
        and numbers to NJ 2-1-1 are provided as well as a link to 
        Google Crisis Maps that includes evacuation routes, shelter 
        locations, street closures, and other critical information.
    NJVOAD convened a Call to Collaboration last October to review 
lessons learned, strengthen partnerships, and identify resources to 
implement many of the proposed solutions born out of our collective 
recovery experience. One of these initiatives is the development of 
educational resources to be utilized in future disasters so that 
impacted homeowners can make informed decisions before beginning their 
recovery. We will be looking to our Government partners to assist with 
methods to disseminate this information publicly in future disasters.
    NJVOAD is working closely with the philanthropic community to 
identify collaborative solutions which will provide for a more 
effective and sustainable funding stream for future disasters. A big 
component in the future success of any changes in funding patterns will 
require education extending to our Government partners and the public 
to ensure a better understanding of the need for funding to sustain 
recovery efforts long-term. The majority of money is donated in the 
days and weeks following a major disaster with the expectation, and 
sometimes mandate, to get the funds out immediately. The reality is 
that these donated dollars should be disbursed in a calculated manner 
to ensure that funding is not front-loaded during response and early 
recovery stages when it is needed least. NJVOAD hopes to establish a 
State-wide advisory group, with representatives from the philanthropic, 
Government and non-profit communities, to provide guidance and 
expertise specific to the disaster at hand.
    The one problem area that NJVOAD has been unable to address with 
any lasting impact is perhaps one of the biggest issues at hand: The 
lack of coordination and continuity in the development and 
implementation of State-managed programs. NJVOAD has forged 
relationships with the New Jersey Division of Consumer Affairs (NJDCA), 
the State Agency with responsibility for development and implementation 
of the majority of these programs. After initial resistance, the 
current leadership has opened up to hearing feedback from the VOAD 
community and making modest adjustments to existing programs, such as 
allowing Disaster Case Managers (with written consent) to talk with the 
Housing Advisors and Project Managers who are managing RREM cases. 
However, these small concessions don't begin to fill the tremendous gap 
that exists in how these programs are designed and integrated into the 
disaster recovery framework. We have seen our VOAD partners in Colorado 
and other States have a role and input in working with their State 
government to design and implement programs that are logical and 
survivor-focused. NJDCA has held public hearings on how they are 
spending the billions of CDBG-DR funds they have received, but the 
feedback provided in these hearings has not resulted in any 
programmatic changes of note. A stronger citizen action plan should be 
mandated which requires input and involvement of disaster survivors and 
recovery entities during formation of any proposed disaster recovery 
action plans.
    The Joint Field Office (JFO) model is an inspired structure 
designed to enhance communication and coordination between Federal and 
State entities in disaster response and recovery. Better integration 
and staffing of the JFO to include State decision makers responsible 
for the development and implementation of recovery programs could go a 
long way in minimizing duplication of efforts, misunderstanding, 
miscommunication, and lack of integration of Governmental programs.
    NJVOAD is committed to working with our public and private-sector 
partners to be part of the solution in implementing lessons learned 
from Sandy and preparing our communities to weather whatever storms 
might lie ahead. Thank you for convening this hearing and providing me 
the opportunity to share this testimony.

    Mr. Donovan. Thank you, Ms. Higgs.
    The Chair now recognizes myself for a few moments to ask 
some questions.
    You spoke about trying to coordinate efforts among non-
profits, yet there is nobody who oversees all the not-for-
profits. So I want to ask you, Vin, on the Federal level, do we 
need another layer of bureaucracy? No one likes bureaucracy, or 
another layer of it. But should there be some kind of 
oversight? This may overlap, Ms. Higgs, with what you were 
talking about. Should there be some oversight or coordination 
of all activities so that we're not doing duplicative services 
and making sure we are satisfying everyone's needs?
    Mr. Ignizio. Well, I can speak to Staten Island from both 
sides. Look, my concern is that it occurs, if that does occur, 
on a county level, on the closest level to the people. If you 
have the Federal Government coordinating it--I mean, it was 
quite some time before we saw any assistance from the Federal 
Government. It was several days, and those first couple of days 
are the ones that mean the most to the Staten Island community. 
There were times when they were literally out of their homes, 
literally don't have water. There were people who were stuck in 
their attic, as you will recall. There were some very scary 
times during the initial 48 hours and thereafter. So I would be 
reticent to support a large organization or a large 
Governmental entity that is going to oversee.
    What needs to occur is--and I think our president has been 
working on this, and non-profits on Staten Island have been 
meeting to say, OK, we are going non-profits, what resources do 
we have geographically, and then what resources do we have to 
be able to support in case of another emergency. Those 
conversations have been on-going and continue to be, and I 
think we are more prepared for the future just in case. We know 
now that if something happens, the South Shore, the Mount 
Loretto campus, which is 170 acres, which has massive 
abilities, has the ability to act as a distribution center, has 
the ability to act. We know that the JCC is always there in 
mid-Island. I don't mean one juxtaposed to another. We know 
geographically that there are folks who want to help throughout 
Staten Island.
    I think county-based is the way to go, and I think the 
borough president has been trying to bring that together as 
well, and I think that is the more appropriate forum for it.
    Mr. Donovan. Do the other panelists agree?
    Ms. Higgs. I think that what we did in New Jersey is where 
there wasn't a VOAD present at the county level previously, we 
worked with long-term recovery organizations as they started to 
sort-of get defunded, and made sure that we maintained those 
relationships around the table so that all the things that you 
learned from Sandy, you will keep those relationships in place 
and know them for the next disaster, whatever that might be. So 
the VOAD movement was born out of the desire to reduce the 
amount of duplication of benefits and services and resources 
that are out there, because we know that non-profits have very 
limited resources. We don't want to all be doing the same 
thing. Let's work together and divide and conquer.
    Mr. Donovan. You testified about how FEMA, HUD, and the VA 
all helped hospitals at the same time. Again, how do you 
coordinate that, especially at a time of a disaster when there 
is chaos? I suspect you have to be prepared for that before the 
disaster occurs so everybody knows what they are doing. You 
have many suggestions in your testimony about how we can 
improve our efforts after the lessons we learned from Katrina 
but didn't implement, the lessons we learned after Sandy that 
we are trying to implement. How do you do that without putting 
another layer of bureaucracy on top?
    Mr. Gair. I am not sure you need another layer of 
bureaucracy, Mr. Chairman. This is FEMA's job. FEMA's job is to 
coordinate, and it is just hit or miss sometimes. They get very 
caught up in delivering their standard programs, which require 
a lot of effort and have a lot of money involved. But the 
coordination of those is just as important, and it is missing 
out. They are very good at giving individual grants to Bellevue 
Hospital or to NYU Langone, and they may have completely 
different project officers working on those, but they are not 
talking together. They are not stepping back and saying is it 
better for Bellevue to build a wall around themselves and VA to 
build a wall around themselves and Langone to build a wall 
around themselves, or can we build a wall that might be more 
cost-effective and more effective by talking to everybody?
    Coordination doesn't make things harder, it makes it 
easier. You just have to make it a central part of what you do 
and not an afterthought.
    Mr. Donovan. My time has run out, but I would love to ask 
you about hospitals because this hospital, like I said, is in 
the flood zone. You were clobbered, but yet you remained open 
and were caring for patients. Can the Federal Government help 
you? You can't move your hospital. The walls that you spoke 
about, maybe someone could build one around your hospital, but 
in the interim is there a role for the Federal Government to 
help you provide the services that you provided during Sandy?
    Ms. Moravick. Sure. I think what is really important is, 
before we get to a disaster, is what do we need to do? One size 
does not fit all. I think that it is really identifying what 
those risks are at the hospital level. Is there a role for 
FEMA? Yes, there is a role for FEMA at the local level.
    Mr. Donovan. My time has expired. I can't yield any more to 
Don because I don't have any myself.
    The Chair recognizes my friend, Don Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Just to comment quickly on Ms. Moravick's testimony, that 
you had the foresight 3 days in advance to start getting ready 
should be considered a best practice, and we should learn that 
the storm potentially has the possibility to turn our way and 
wreak devastation.
    Mr. Gair, tell us how you really feel.
    [Laughter.]
    Mr. Payne. We learned a great deal from your testimony 
there, and I appreciate it.
    But let me ask Ms. Higgs and Mr. Ignizio, each of you 
shared important information on how charities and non-profit 
organizations can assist in disaster response and recovery 
efforts. Can you talk about how State and local emergency 
responders coordinate with your organizations?
    Mr. Ignizio. Well, I can speak for myself. Currently, they 
don't. We have not had the level of outreach that we would 
like, and that is why we are happy to learn of the county role. 
We are working amongst each other, the other non-profits on 
Staten Island, to identify resources we have and how to 
redeploy them or deploy them as needed to help Staten Island.
    The reality is that non-profits do it better. We do it 
faster. We are on the ground that day. Waiting for the cavalry 
to arrive is fine, but you need help immediately, and I think 
we do it better, more efficiently and, quite frankly, more 
cost-effectively. So I would encourage the Federal Government 
to invest, not necessarily with funds but to invest in helping 
non-profit organizations become that safety net for when real 
disaster strikes to be there on the ground immediately.
    Mr. Payne. So basically to hold the fort until we show up, 
the Federal Government.
    Mr. Ignizio. Yes, sir.
    Mr. Payne. Ms. Higgs.
    Ms. Higgs. I would echo that. The non-profits are really 
the first to be there and the last to leave. So any additional 
support that can be given to provide additional financial, as 
well as infrastructure support for that to be in place I think 
is really important.
    In New Jersey at the State level, there is a State VAL, or 
voluntary agency liaison, that is the representative that 
connects the Office of Emergency Management, which is run 
through the State Police, with the State VOAD and other non-
profit organizations. So we enjoy a good relationship with the 
State Police, who is our Office of Emergency Management, and 
when disaster strikes NJVOAD has a seat at the rock, which is 
our State emergency operation center. We were there for weeks 
during Sandy. Then when other smaller-scale disasters have been 
on the horizon, when winter storm Jonas was hitting, and when 
Joaquim was sort-of threatening last October, we were convening 
calls in advance and working with our OEM partners.
    What we are trying to do is make sure that that same 
relationship is replicated at the county level as well, to echo 
some of what Mr. Ignizio was saying before. We want to make 
sure that those relationships are there in place, and when we 
set up VOADs at the local level, at the community level, we 
have been successful in most of our counties. For example, in 
Hudson County and in Union County, the OEM coordinators are 
very active in the VOAD and getting that established, and we 
are hoping to have that repeated in Essex County as well as we 
are looking to start there.
    Mr. Payne. OK. Well, let me know how that is moving along 
in terms of Essex County.
    Ms. Higgs. OK.
    Mr. Payne. Being the composition of my district, as I 
mentioned in my opening statement, I am really concerned about 
what we are doing to address the unique impact of disasters on 
low-income communities that normally have the most difficult 
time in these emergencies. Can you talk about what resources 
are available for low-income communities affected by disaster, 
and what we can do to make them more prepared and resilient?
    Mr. Gair. Mr. Payne, the challenge is that all the same 
resources are available in low-income communities as everywhere 
else, and what we need to do is make more of an effort to 
penetrate into those communities. A lot of times the 
communications are not as easy, the languages may be different 
than English, and while information is put out in many 
languages, we really don't make that extra effort to get out to 
the communities to make sure that people understand the 
opportunities and then use the funds to try and make things 
better.
    The HUD CDBG-DR program springs from the HUD CDBG program, 
which is for low- and moderate-income families. So we need to 
take those funds and look for opportunities not just to fix 
those things that were damaged by the hurricane but to find 
ways to make those communities more resilient as a whole. There 
is tremendous flexibility there, and I don't think it gets used 
as much as it could in the low-income areas.
    Mr. Ignizio. Can I make a point with that? I mean, Brad 
will remember when we had the issue in New Dorp, we had members 
of the Mexican population, many of which were undocumented, who 
refused to take any assistance at all because they were afraid 
that writing their name and their address on a piece of paper 
would end up with them having issues with the Federal 
Government thereafter. So it wasn't until I think it was Make 
the Road who came in and started going door to door with help 
to let people know we are just here to help, we are just here 
to triage, there is no issue with regards to your status in the 
country, that they started accepting some assistance; because, 
if you recall, that was a big problem that we had primarily, as 
I recall, in the New Dorp area.
    Mr. Payne. OK. Ms. Higgs.
    Ms. Higgs. I think when it comes to low-income households, 
they are the most vulnerable. Unfortunately, when disaster 
strikes, they are usually the hardest hit and the last to be 
able to start the recovery process. We have certainly seen that 
in New Jersey, especially in the urban communities that were 
impacted. I think anything that we can do--the non-profits are 
really sometimes the network where they feel most comfortable. 
What we found, especially in Newark, in the city of Newark, is 
that people went to their local churches and their houses of 
worship because that was where they felt most comfortable.
    So again, I sort-of feel like I am preaching the VOAD 
mantra here, but having those community organizations and those 
local churches, being part of that network, is important 
because that is one of the ways to get that information out to 
a large network of people that would not necessarily hear the 
message otherwise.
    Mr. Payne. Yes, I appreciate that. The churches in Newark 
really played a pivotal part.
    Ms. Higgs. They were instrumental.
    Mr. Payne. Even serving 10,000 to 15,000 meals a day during 
that time.
    But with that, Mr. Chairman, I will yield back.
    Mr. Donovan. Thank you, Don.
    One of the advantages of being the last panel is that I can 
actually give you an opportunity if there was something that 
was stirred up in your minds during our conversation, questions 
that we didn't cover with you that you think would be important 
for us to bring back to the District of Columbia. We would 
welcome anything else that was not in your testimony or may 
have come to your mind hearing the other witnesses speak or 
that was stimulated by--not that any of our questions were 
stimulating, but----
    [Laughter.]
    Mr. Donovan. But if there is something that came up, we 
allow you this opportunity now before we close down.
    Mr. Ignizio. I will just add one thing. Some ways the 
Federal Government can be helpful is with their vast amount of 
resources. So we have a 170-acre campus. You have a storm 
coming. We can welcome, if you will, redeployed assets onto our 
campus for, God forbid, if it is needed and hope that it is 
not. That type of pre-coordination is something that we as 
Catholic Charities of Staten Island would welcome at both of 
our sites, either at Port Richmond or at Mount Loretto. The 
vast amount of resources that the Federal Government has, if it 
is placed there at the beginning of the season or a week before 
we hear a hurricane is coming, we would be happy--we want to be 
a part of the solution. We don't want what occurred to occur 
again.
    I recall us looking for buses to be able to bring people to 
and from the shelter system, and where are we going to get them 
from, from the MTA, from the school system, things like that. 
Maybe the Federal Government has ways of being helpful, we have 
supplies, we have buses, we have apparatus in place that we can 
bring in before a disaster strikes that can be helpful. Should 
the storm not occur or it not be as serious, then it just goes 
back to where it was.
    Mr. Donovan. You want to be helpful. You just want to get 
reimbursed.
    Mr. Gair. I think I would just like to reiterate the fact 
that the real challenge here is that everybody is trying to do 
the right things. The Federal agencies have programs. They are 
trying to deliver the aid. The cities are trying to take the 
rules and use the rules and make them work. The voluntary 
agencies are trying to fill the gaps. The private sector is 
standing ready. But we are not putting it all together, and I 
think that is because we don't have all the right programs tied 
together the way that they should be, so we end up with people 
not getting the help that they need.
    So we really have to work on that piece of it. After 9/11, 
when I was the Federal recovery officer and people said, well, 
the FEMA acts really were designed for natural disasters, and 
this is an act of terror, so what are we going to do in New 
York and New Jersey? Do we need a new FEMA Stafford Act just 
for that? As we looked at it, the answer is it is all there. It 
is all there in the Stafford Act because it is so flexible. 
Basically, the President can direct agencies to do whatever 
needs to be done to get places back to where they were. But 
then we build a lot of regulations around that that tie our own 
hands.
    So I think we need to go back and look at what we can do 
with the authorities that we have in place to let these people 
do what they do best if you let them, and that is get the job 
done. That is why people join the Federal Government, the State 
government, and the city government. They want to help. We just 
keep tying their hands in ways that make it harder to do so.
    Mr. Donovan. Some people even join Congress for that.
    [Laughter.]
    Mr. Gair. Thank God.
    Mr. Payne. I resemble that remark.
    [Laughter.]
    Mr. Donovan. I think we all are saying that, we all agree 
with my friend Mr. Ignizio, who said that preparing ahead of 
time, because during a chaotic situation like a natural 
disaster or a terrorist attack is not the time to figure out 
who is supplying the buses.
    Ms. Moravick.
    Ms. Moravick. We put an application in for the HMPG grant, 
and it took quite a bit of time to get it. We went through at 
least 3 more hurricane seasons. So I think a little more 
coordination of who is doing what would be helpful, because as 
I hear and listen to the news of the wind and the weather and 
the rain, we even had a subsequent rain storm, a 500-year event 
which flooded out our first floor in August 2014, which was a 
disaster. In our ICU, we had mulch coming down the hallways. So 
we really need to strengthen and support our campus, and I 
think we started on our own. We invested $6 million, but it is 
to a point where we really need to make that huge investment of 
$25 million to harden the campus. Thanks.
    Ms. Higgs. Thank you for the opportunity to have a final 
word here. Coordination has sort of been straining throughout 
this whole thing, better coordination among our Federal 
agencies with the States, with the non-profits, just better 
coordination and cooperation throughout. I think one of the 
things that we have seen with what we have been able to do in 
New Jersey with some funding for our VOAD, we have been able to 
really see that happen at the State level and at the county 
level. When we presented on this at a National conference, all 
the other States were saying, how do we do this? We have been 
fortunate to get funding that we had from Hurricane Sandy that 
we have been able to use to leverage to do preparedness and 
resiliency work throughout the State.
    VOAD is not a funded organization. I am the only staff 
person of a VOAD throughout the whole Nation. The National VOAD 
has staff, but none of the other States do. So the work that we 
have been able to do we were able to do through private funding 
that we were able to raise and a Corporation for National 
Community Service grant. I think what we would like to see is 
that effort replicated on a National level because we have 
shown that it really does work in New Jersey. We haven't--knock 
on wood--had the ability to test it in a live situation, but we 
are in a much better position now than we were 3\1/2\ years 
ago. It is because of an investment of funds in the non-profit 
structure throughout New Jersey to strengthen resiliency and 
preparedness throughout.
    Mr. Payne. Ms. Higgs, would the CDBG-DR funds be something 
that you could use?
    Ms. Higgs. We certainly could, and it is something we have 
looked at. From what I understand, they are generally applied 
State-by-State. So we as an organization could apply through 
the State of New Jersey. What we are really trying to do--we 
obviously want to continue to find some funds that would 
sustain on-going, but we really want to help the other 49 
States and the territories to be able to replicate what we have 
been able to do in New Jersey because that just strengthens the 
overall infrastructure when it comes to that. So, yes, CDBG-DR 
funds are certainly an answer, but anything that we can do to 
really try to bring this outside of New Jersey's confines to 
help the Nation is something that we are hoping to do.
    Mr. Donovan. Well, I thank the witnesses for your testimony 
and your suggestions. I guarantee they have not fallen on deaf 
ears. This is the fourth hearing that I have conducted. The 
three other hearings that were conducted resulted in 
legislation to improve the systems which were already in place. 
We will take back your suggestions and your testimony with us 
to the remainder of the committee. There are other committee 
Members from all parts of the country, and I guess they didn't 
want to come to Staten Island for the pizza. They are so 
unlucky.
    [Laughter.]
    Mr. Donovan. But I thank you all for your testimony.
    The other Members of the subcommittee may have questions 
when we get back to Washington, and they may submit those. I 
would ask that you submit answers to those within 10 days. The 
hearing record will be held open for an additional 10 days.
    The subcommittee stands adjourned.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Chairman Daniel M. Donovan, Jr. for Michael Byrne
    Question 1. A common theme from witnesses on the second panel at 
the field hearing was the need for better coordination and 
collaboration--between and among Federal agencies and with State and 
local governments and non-profit and private-sector agencies.
    We are in the early months of another hurricane season. How are 
FEMA and HUD working to ensure that any response and recovery efforts 
will be appropriately coordinated?
    Answer. The Federal Emergency Management Agency (FEMA) has primary 
oversight for Federal response, recovery, and mitigation operations, 
for all hazards, including hurricanes. FEMA is the coordinating 
authority for all Federal interagency partners in support of incident 
operations. Federal departments and agencies along with local, State, 
Tribal, and territorial governments and others, such as non-profits and 
private-sector entities, must understand each other's roles and 
responsibilities and cooperate to achieve shared goals.
    The Federal Government organizes and coordinates response and 
recovery resources and capabilities under the Emergency Support 
Function (ESF) and Recovery Support Function (RSF) constructs. ESFs and 
RSFs are groups of organizations that work together to manage resources 
and deliver capabilities that support resiliency and response and 
recovery. By not focusing on the capabilities of a single department or 
agency ESFs and RSFs support effective interagency coordination.
    FEMA works with its National-level partner ESF and RSF agencies to 
develop risk-specific, coordinated interagency operational plans and 
exercises for all hazards, including hurricanes. Within this construct, 
each partner agency prepares its own plans for how it will execute its 
portion of the coordinated response mission. The ESF coordinating 
agencies met at the start of the 2016 Hurricane Season to discuss new 
plans, procedures, forecasting, and storm surge modeling capabilities 
as well as to identify potential capability gaps and other concerns of 
each ESF for the 2016 hurricane season.
    As one example of this on-going coordination, FEMA and the 
Department of Housing and Urban Development (HUD) support the 
coordination of interagency efforts for all hazards in addition to 
hurricane planning. HUD is the coordinating agency for the Housing RSF, 
and has taken a major role in 2016 Recovery Support Function Leadership 
Group (RSFLG) planning and operational initiatives, e.g. RSFLG annual 
strategic planning session, RSFLG Readiness Assessment, and Flint, MI 
assessment and coordination efforts.
    HUD and FEMA recently held two coordination meetings with the FEMA 
Individual Assistance Division, FEMA Interagency Coordination Division 
(ICD), and HUD to enhance outreach and on-the-ground coordination in 
preparation for any potential natural disasters. HUD is also working on 
earlier engagement with FEMA as illustrated with the recent West 
Virginia (WV) flooding. Prior to receiving any mission assignments for 
WV, HUD staff and resources were made available during the response to 
initiate planning and preparation for the eventual recovery effort. 
These efforts are ensuring HUD is better coordinated and is providing 
consistent advice/technical support to State, local, and private-sector 
agencies.
    Further, the President's fiscal year 2017 budget proposal requests 
statutory authority to transfer the responsibilities for the Emergency 
Food and Shelter Program (EFSP) from FEMA to HUD for fiscal year 2017. 
FEMA and HUD believe that this transition will improve program mission 
alignment, improve coordination, increase accountability and 
transparency, and maximize the effectiveness of the use of these funds.
    Additionally, Regional FEMA Readiness Assessment Program (F-RAP) 
efforts have focused on interagency coordination to further facilitate 
implementation of the National Disaster Recovery Framework (NDRF). A 
component of these efforts is identification of potential best 
practices to be shared across regional, State, local, Tribal, and 
territorial stakeholders. An example recently identified from the 
Region II F-RAP pertaining to housing recovery efforts after Hurricane 
Sandy is the New Jersey/New York Federal Leadership Resilience 
Collaborative (``the Collaborative''). The Collaborative was referenced 
in Deputy Regional Administrator Michael Byrne's July 11, 2016 
testimony.*
---------------------------------------------------------------------------
    * ``A New Jersey/New York Federal Leadership Resilience 
Collaborative (``the Collaborative'') was established and meets 
regularly to share information on key infrastructure projects and 
promote regional resilience. The Collaborative is comprised of Regional 
Administrators and other senior staff from FEMA, the U.S. Department of 
Interior, U.S. Department of Transportation, U.S. Army Corps of 
Engineers, EPA, and HUD. The Collaborative provides an unparalleled 
forum for Federal officials to develop a strategic approach to foster a 
more comprehensive region-wide planning for risk reductions and 
provides opportunities for leveraging Federal dollars.''
---------------------------------------------------------------------------
    Question 2. What additional changes to current law would you 
recommend to enhance your ability to prepare for, respond to, or 
recover from storms like Superstorm Sandy?
    Answer. On June 6, 2016, FEMA transmitted a legislative proposal 
titled the ``Disaster Workforce Flexibility Act'' to Congress. The 
proposal would grant competitive status to allow certain temporary FEMA 
employees to apply for permanent positions under merit promotion 
procedures. A significant portion of FEMA's response and recovery 
capabilities resides in its Reservist workforce and Cadre of On-Call 
Response/Recovery Employees (COREs). FEMA Reservist and CORE personnel 
provide valuable and essential services at FEMA headquarters, regional 
offices, and disaster Joint Field Offices, in the immediate lead-up to, 
during, and after an emergency or major disaster. However, unlike 
permanent Federal employees, these vital personnel currently are not 
eligible to compete for vacant Federal permanent positions under merit 
promotion procedures. This change would allow FEMA the flexibility to 
potentially fill competitive service vacancies at FEMA with COREs and 
Reservists through merit promotion procedures.
    Additionally, this change would provide a strong incentive for 
people to join FEMA through these programs because this status would 
allow for a greater opportunity to attain a permanent, competitive 
service position in the future. This incentive would serve to attract 
more applicants who aspire to a career in the Federal service, 
particularly in the field of emergency response, recovery, and 
management. A larger pool of candidates for the FEMA Reservist and CORE 
programs would potentially provide FEMA with access to applicants with 
a broader array of skills, qualifications, and experience than may 
exist currently.
    FEMA welcomes the opportunity to provide technical assistance 
regarding this legislative proposal and looks forward to continuing to 
work with Congress as they develop proposed legislation relating to 
FEMA's Stafford Act authorities.
  Questions From Chairman Daniel M. Donovan, Jr. for Marion Mollegen 
                                McFadden
    Question 1a. In response to Superstorm Sandy, Congress appropriated 
$16 billion in CDBG funds for disaster relief. In the legislative 
language of the Disaster Appropriations Act, 2013, Congress 
specifically elected not to restrict eligibility for CDBG funds for 
for-profit entities. Congress did, however, authorize the Secretary of 
Housing and Urban Development to specify alternative requirements for 
CDBG disaster assistance funds.
    When HUD issued its Notice providing guidance for the initial 
allocation of $5.4 billion in funding under the CDBG Program for 
Hurricane Sandy relief, the HUD press release announcing the initial 
allocation of funding stated that ``CDBG Disaster Recovery funding 
gives grantees significant flexibility in determining how best to use 
their funds to meet the greatest unmet needs.'' Despite this language, 
however, the HUD guidance imposed a new restriction on the use of CDBG 
funds for repairs to utility infrastructure. The Notice imposed an 
alternative requirement that HUD disaster relief funds may ``not be 
used to assist a privately-owned utility for any purpose.'' The 
alternative requirement also limited assistance to for-profit 
businesses only to small businesses.
    How is HUD's ``alternative requirement'' not inconsistent with 
existing law? Under 42 U.S.C. Section 5305(a)(17)(C), CDBG funding can 
be used to provide assistance to ``private, for-profit entities, when 
the assistance . . . meets urgent needs.'' Under existing HUD 
regulations (24 C.F.R. Section 570.201(1), CDBG funds may be used ``to 
acquire, construct, reconstruct, rehabilitate, or install the 
distribution lines and facilities of privately-owned utilities, 
including the placing underground of new or existing distribution 
facilities and lines.'' Neither this existing law nor these regulations 
were changed by the Disaster Appropriations Act, 2103.
    Answer. Benefit to low- and moderate-income persons is the primary 
objective of the CDBG program (Section 5301(c) of Title 42 of the 
United States Code). While the required overall low- and moderate-
income threshold for CDBG-DR funds was reduced by Public Law (Pub. L.) 
113-2 in comparison to the annual CDBG program, the Department is 
acutely aware that low- and moderate-income households are the least 
likely to recover in the wake of a major declared disaster. In 
implementing CDBG-DR supplemental appropriations, HUD seeks to ensure 
that adequate resources are available to assist this population. HUD 
uses multiple strategies to ensure that the recovery needs of low- and 
moderate-income households are prioritized, one of which is ensuring 
that entities with insurance and financial resources that may be 
devoted to recovery are, in fact, used to fund recovery activities. The 
decision to use the CDBG-DR ``alternative requirement'' authority of 
Pub. L. 113-2 to limit the use of CDBG-DR assistance to small business 
entities is in keeping with the goals of maximizing assistance 
available for low- and moderate-income populations while also 
maximizing private financial resources. The appropriation required HUD 
to publish any such alternative requirements in the Federal Register.
    The Department's March 5, 2013 Federal Register Notice implemented 
CDBG-DR funding appropriated by Pub. L. 113-2 and contained an 
alternative requirement to Section 5305(a) of Title 42 of the United 
States Code that limited the broader, usual eligible use of CDBG funds 
under Sections 5305(a)(14) and (17). The regulation cited in the 
question, Section 570.201(1) of Title 24 of the Code of Federal 
Regulations, is an implementation of the statutorily-eligible uses of 
CDBG funds under Section 5305(a)(14) and (17), which were limited 
through the March 5 Notice. The March 5 Notice states that ``For each 
waiver and alternative requirement described in this Notice the 
Secretary has determined that good cause exists and the action is not 
inconsistent with the overall purpose of the HCD Act.''
    These provisions of the March 5, 2013, Notice reflect the 
administration's December 7, 2012 transmission to then Speaker of the 
House John Boehner requesting an appropriation of Federal funds in 
response to Hurricane Sandy. In outlining the HUD portion of that 
request, the administration noted: `` . . . business repair funds 
should be directed to unmet small business damage only, and except for 
small businesses that face long-term business disruption, funds should 
not be used to restore lost revenue.'' (see page 29, paragraph 6 of the 
Appendix to the December 7, 2012, submission, available athttps://
www.whitehouse.gov/sites/default/files/
supplemental_december_7_2012_hurricane_sandy_funding_needs.pdf.
    Question 1b. Do you agree that the alternative requirements 
established by HUD under the 2013 Disaster Relief Appropriations Act 
should not be treated by HUD as a precedent for the repair or 
rebuilding of privately-owned utility infrastructure?
    Answer. HUD has maintained the prohibition on assistance to private 
utilities in its most recent Federal Register Notice implementing the 
fiscal year 2016 appropriation of $300 million in CDBG-DR funding to 
address the impact of 2015 flooding in South Carolina and Texas (81 
Fed. Reg. 39707). Grantees under the fiscal year 2016 appropriation or 
under the appropriation made by Public Law 113-2 may also seek a waiver 
of HUD requirements. To date, the sole request for a waiver of the 
private utility prohibition under either appropriation has been from 
the State of New Jersey, for the purpose of implementing its Energy 
Resilience Bank. HUD approved the State's waiver request in a Federal 
Register Notice published on August 25, 2015 (80 Fed. Reg. 51590).
    Question 2. A common theme from witnesses on the second panel at 
the field hearing was the need for better coordination and 
collaboration--between and among Federal agencies and with State and 
local governments and non-profit and private-sector agencies.
    We are in the early months of another hurricane season. How are 
FEMA and HUD working to ensure that any response and recovery efforts 
will be appropriately coordinated?
    Answer. As part of the long-tem recovery efforts following 
Hurricane Sandy, FEMA and HUD leadership initiated a number of joint 
interagency teams and meetings in the region to ensure on-going 
relationships, information sharing, and collaborative effort. These 
teams and meetings include appropriate experts and responsible 
officials in disaster response and recovery across Federal, State, and 
local government levels. FEMA and HUD have also worked closely on 
preparedness and training to enhance the awareness of critical 
information and operations needs in disaster response and recovery.
    HUD participates in the Unified Federal Environmental and Historic 
Preservation Review Process that was directed by the Sandy Recovery 
Improvement Act of 2013 and established by a Memorandum of 
Understanding on July 2014. This process enhances the ability of 
Federal agencies to expedite environmental and historic preservation 
reviews for disaster recovery projects through tools and coordination 
resources.
    Question 3. What additional changes to current law would you 
recommend to enhance your ability to prepare for, respond to, or 
recover from storms like Superstorm Sandy?
    Answer. CDBG-DR funds.--There is no standing legislative 
authorization for HUD's CDBG-GR assistance following a disaster, or, 
indeed several other important programs such as DOT's transit emergency 
relief program. Each appropriation of CDBG-DR funds has been a 
supplemental appropriation enacted after the disaster has struck--often 
with nuanced differences in the appropriations language--and after the 
Federal response from FEMA, SBA, and other agencies is well underway. 
The administration and HUD recognize this mismatch and thus included 
the following statement in the President's fiscal year 2017 budget 
request: `` . . . To ensure a more orderly and efficient recovery 
process, in 2016, the administration will work with agencies across the 
Federal Government, as well as public stakeholders to develop a 
standing authorization proposal for the provision of CDBG-DR funds. 
This proposed authorization would incorporate lessons learned from 
previous disasters, provide clarity and predictability over CDBG-DR 
funding and program guidelines, and improve the alignment of CDBG-DR 
funds with other Federal programs'' (Fiscal year 2017 President's 
budget appendix, HUD). The Department is currently engaged in executing 
this directive and may use the information gathered to develop a future 
proposal.
    Improve data sharing between Federal agencies.--In order to provide 
disaster assistance through any Federally-funded program, CDBG-DR 
grantees must have access to Federal data to allow them to adequately 
document eligibility and need. These data contain personally 
identifiable information about individuals receiving assistance and the 
challenges associated with obtaining this data can result in 
significant delays for grantees and beneficiaries. Exploring ways for 
HUD and other Federal agencies to more readily share data between the 
agencies and with grantees would improve the Federal response. The 
Department is currently working with FEMA to implement a data-sharing 
agreement that would allow the Department to provide timely information 
about recipients of disaster assistance to CDBG-DR grantees.
    Consistently apply Federal requirements.--Many disaster recovery 
activities have multiple Federal funding sources that in turn introduce 
Federal requirements that are specific to each source. When HUD funds 
are used in conjunction with other Federal funds, for the same project, 
differing requirements are triggered at different times. For example, 
HUD funds for most housing and community development projects require 
compliance with Section 3 of the Housing and Community Development Act 
of 1968, which requires grantees to demonstrate that economic 
opportunities arising from the project are provided, to the greatest 
extent possible, to low- and very-low income persons. This is a 
requirement that is unique to HUD-funded projects and grantees 
routinely face challenges in incorporating Section 3 provisions into 
agreements with other Federal agencies when attempting to use HUD funds 
for a project that is also funded with other Federal sources. Providing 
consistent cross-cutting requirements across all Federal sources of 
disaster assistance would improve coordination of the Federal response.
    Streamline environmental review requirements.--Basic housing 
rehabilitation projects are subject to the same Federal environmental 
review requirements that apply to more complex and impactful recovery 
projects. Two recent CDBG-DR appropriations authorized grantees to use 
the environmental review of one Federal agency to satisfy the 
environmental review requirements of another agency. Further exploring 
ways to expedite environmental reviews for housing rehabilitation and 
other less complex recovery projects could also accelerate recovery.

                                 [all]
</pre></body></html>
